Office of Inspector General
U.S. General Services Administration




Semiannual Report
to the Congress
April 1, 2013 – September 30, 2013
Abbreviations
ARRA/ Recovery Act	   American Recovery and Reinvestment Act
ASAC	                 Assistant Special Agent in Charge
CFO	                  Chief Financial Officer
CIO	                  Chief Information Officer
CIGIE	                Council of Inspectors General for Integrity and Efficiency
CSP	                  Commercial Sales Practices
DCIS	                 Defense Criminal Investigative Service
DHS	                  Department of Homeland Security
FAR	                  Federal Acquisition Regulation
FAS	                  Federal Acquisition Service
FBI	                  Federal Bureau of Investigation
FEMA	                 Federal Emergency Management Agency
FY	                   Fiscal Year
GSA	                  General Services Administration
IFF	                  Industrial Funding Fee
IPERA	                Improper Payments Elimination and Recovery Act of 2010
IT	                   Information Technology
MAS	                  Multiple Award Schedule
NCR	                  National Capital Region
OAS	                  Office of Administrative Services
OCFO	                 Office of the Chief Financial Officer
OCIO	                 Office of the Chief Information Officer
OIG/IG	               Office of Inspector General/ Inspector General
OMB	                  Office of Management and Budget
OPM	                  Office of Personnel Management
PBS	                  Public Buildings Service
RWA 	                 Reimbursable Work Authorization
SAC	                  Special Agent in Charge
SBA	                  Small Business Administration
TAA	                  Trade Agreements Act
VA	                   Veterans Affairs
WPA	                  Works Progress Administration
FOREWORD




Foreword
During this semiannual reporting period, the Office of Inspector General (OIG)
continued its important work in detecting fraud and mismanagement within the
General Services Administration’s (GSA’s) programs and operations.

   >> We issued 47 audit reports and made 354 referrals for criminal prosecution, civil
      litigation, and administrative action during this period (page 8).

   >> We recommended over $885 million in funds to be put to better use and in
      questioned costs this period (page 8), bringing the total amount of financial
      recommendations to over $1.7 billion for Fiscal Year (FY) 2013 (page 9).

   >> Civil settlements and court-ordered and investigative recoveries totaled over $143
      million for this semiannual period (page 8) and $253 million for FY 2013 (page 9).

Our Office of Audits continued to identify deficiencies in GSA’s acquisition, information
technology, and greening programs, and American Recovery and Reinvestment Act
(Recovery Act) projects. In the course of performing contract audits, our auditors
identified instances where Federal Acquisition Service (FAS) management, based on
complaints from contractors, overrode contracting officer determinations, thereby
undermining the integrity of the procurement process.

The OIG Office of Investigations continued to focus on major procurement fraud
schemes. One investigation resulted in a $60 million settlement by RPM International,
Inc., and its subsidiary, Tremco, Inc., to resolve false claims allegations (page 31). Another
investigation led to a $10.5 million settlement by Gallup to resolve allegations that it
inflated contract prices and engaged in prohibited employment negotiations (page 31).

Additionally, our Office of Forensic Auditing, Evaluation, and Analysis reviewed GSA’s
practices for performance recognition and awards for members of the Senior Executive
Service (SES) and found that GSA’s performance evaluation practices violated legal
and record retention requirements. Furthermore, disclosures to the Office of Personnel
Management (OPM) and Congress about the award program were inaccurate (page 40).

The OIG also participated in a number of interagency committees, reviewed numerous
pieces of legislation and proposed regulations, and continued our public and private
sector outreach as part of an effort to detect and deter procurement fraud (page 43).

I appreciate the hard work, dedication, and professionalism of our OIG employees.
I thank the Members of Congress, the Office of Management and Budget (OMB),
and employees throughout GSA for their continued support in working towards
our common goals.




Brian D. Miller
Inspector General
November 15, 2013




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                          iii
                                                                                  CONTENTS




Contents
ii	Abbreviations


iii	Foreword


2	    OIG Profile
      4	    OIG Organization Chart
      5	    OIG Offices and Key Officials


7	    Statistics on OIG Accomplishments
      8	    Summary of OIG Performance
      9	    Fiscal Year 2013 Results
      10	   Statistical Summary of OIG Accomplishments


17	   Management Challenges
      17	   Acquisition Programs
      23	   Information Technology
      25	   Greening Initiative – Sustainable Environmental Stewardship
      26	   American Recovery and Reinvestment Act Impact
      27	   Other Initiatives


31	   Significant Investigations
      31	 Civil Settlements
      32	 Criminal Investigations
      38	 Internal Operations
      39	 Suspension And Debarment Initiative
      39	 Integrity Awareness
      39	Hotline


40	   Forensic Auditing, Evaluation, and Analysis

43	   Government-Wide Policy Activities

49	   Appendix I –
      Significant Audits from Prior Reports

53	   Appendix II –
      Audit Report Register

56	   Appendix III –
      OIG Reports over 12 Months Old, Final Agency Action Pending

63	   Appendix IV –
      OIG Reports Without Management Decision

65	   Appendix V –
      Peer Review Results

66	   Appendix VI –
      Reporting Requirements




iv                          OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
OIG Profile
                                                                                   OIG PROFILE




OIG Profile
Organization
The GSA OIG was established on October 1, 1978, as one of the original 12 OIGs
created by the Inspector General Act of 1978. The OIG’s five components work
together to perform the missions mandated by Congress.

The OIG provides nationwide coverage of GSA programs and activities. Our
components include:

     >> The Office of Audits, an evaluative organization staffed with auditors and analysts
        who provide comprehensive coverage of GSA operations through program,
        financial, regulatory, and system audits and assessment of internal controls. The
        office conducts attestation engagements in support of GSA contracting officials
        to carry out their procurement responsibilities and obtain the best value for federal
        customers and American taxpayers. The office also provides other services to
        assist management in evaluating and improving its programs.

     >> The Office of Administration, a professional support staff that provides: budget
        and financial management, contracting, facilities and support services, human
        resources, and information technology services.

     >> The Office of Counsel, an in-house legal staff that provides legal advice and
        assistance to all OIG components, represents the OIG in litigation arising out of or
        affecting OIG operations, and manages the OIG legislative and regulatory review.

     >> The Office of Forensic Auditing, Evaluation, and Analysis, a multidisciplinary
        organization that conducts analyses and evaluations of GSA programs and
        operations through management and programmatic reviews intended to provide
        insights into issues of concern to GSA, Congress, and the American public. In
        addition, the office formulates, directs, and coordinates the quality assurance
        function of the OIG and undertakes special projects and analyses as required by
        the Inspector General.

     >> The Office of Investigations, an investigative organization that conducts a
        nationwide program to prevent, detect, and investigate illegal or improper activities
        involving GSA programs, operations, and personnel.




2                          OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
OIG PROFILE




Office Locations
The OIG is headquartered in Washington, D.C., at GSA’s Central Office Building. Field
and regional offices are maintained in Atlanta, GA; Auburn, WA; Boston, MA; Chicago,
IL; Denver, CO; Fort Lauderdale, FL; Fort Worth, TX; Kansas City, MO; Laguna Niguel,
CA; New York, NY; Philadelphia, PA; Sacramento, CA; San Francisco, CA; and the
Washington, D.C., area.


Staffing and Budget
As of September 30, 2013, our on-board staffing level was 269 employees. The OIG
operated under a full-year continuing resolution based on our FY 2012 budget of $58M
with a 0.2% rescission and an additional $471K in funds appropriated under the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The budget was also subjected
to a 5.0% sequestration reduction.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                     3
                                                                              OIG ORGANIZATION CHART




                            OIG Organization Chart
                                             INSPECTOR GENERAL
                                                 Brian D. Miller
                                          DEPUTY INSPECTOR GENERAL
                                               Robert C. Erickson



      OFFICE OF COUNSEL TO THE IG
                                                                           ASSOCIATE INSPECTOR GENERAL
              Richard Levi
                                                                                  Larry Lee Gregg
            Counsel to the IG


 OFFICE OF COMMUNICATIONS AND                                                  OFFICE OF FORENSIC AUDITING,
    CONGRESSIONAL AFFAIRS                                                       EVALUATION, AND ANALYSIS
                                                                                  Patricia Sheehan, Director



                                                                                  Executive Resources Staff/
                                                                                    Human Capital Officer




OFFICE OF INVESTIGATIONS                       OFFICE OF AUDITS                 OFFICE OF ADMINISTRATION
   Geoffrey Cherrington                       Theodore R. Stehney                   Stephanie Burgoyne
   AIG for Investigations                       AIG for Auditing                   AIG for Administration




      Investigations Operations              Audit Planning, Policy, and              Budget and Financial
               Division                           Operations Staff                    Management Office



                                                Administration and
     Internal Operations Division                                                      Contracting Office
                                                Data Systems Staff



        REGIONAL OFFICES
                                              Finance and Information                Facilities and Support
          Washington, DC
                                              Technology Audit Office                   Services Office
            New York
             Atlanta
             Chicago
           Kansas City
            Fort Worth                             Real Property                   Human Resources Division
          San Francisco                             Audit Office
             Auburn
              Boston
           Philadelphia
                                               Acquisition Programs                 Information Technology
                                                   Audit Office                            Division
           SUB-OFFICES
               Denver
           Laguna Niguel
           Ft. Lauderdale                           REGIONAL
            Sacramento                            AUDIT OFFICES
                                                     New York
                                                    Philadelphia
                                                      Atlanta
                                                      Chicago
                                                    Kansas City
                                                     Fort Worth
                                                   San Francisco




4                                  OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
OIG Offices and Key Officials
OFFICE OF THE INSPECTOR GENERAL

Inspector General                                        Brian D. Miller (J)                   (202) 501-0450
Deputy Inspector General                                 Robert C. Erickson (JD)               (202) 501-0450
Special Assistant for Communications                     Sarah Breen                           (202) 219-1351
Congressional Affairs Liaison                            Jennifer Riedinger                    (202) 501-4634
OFFICE OF COUNSEL TO THE INSPECTOR GENERAL

Counsel to the IG                                        Richard Levi (JC)                     (202) 501-1932
OFFICE OF ASSOCIATE INSPECTOR GENERAL

Associate Inspector General                              Larry Lee Gregg (JX)                  (202) 219-1041
OFFICE OF FORENSIC AUDITING, EVALUATION, AND ANALYSIS

Director                                                 Patricia D. Sheehan (JE)              (202) 273-4989
OFFICE OF ADMINISTRATION

Assistant IG for Administration                          Stephanie Burgoyne (JP)               (202) 273-5006
Deputy Assistant IG for Administration                   Erica Kavanagh (JP)                   (202) 501-4675
Director, Budget and Financial Management Office         Stephanie Burgoyne (JPB)              (202) 273-5006
Director, Human Resources Division                       Denise McGann (JPH)                   (202) 501-1734
Acting Director, Information Technology Division         Erica Kavanagh (JPM)                  (202) 501-4675
Supervisor, Facilities and Services Office               Carol Mulvaney (JPF)                  (202) 501-3119
Contracting Officer                                      Brenda Reynolds (JPC)                 (202) 501-2887
OFFICE OF AUDITS

Assistant IG for Auditing                                Theodore R. Stehney (JA)              (202) 501-0374
Deputy Assistant IG for Acquisition Programs Audits      James P. Hayes (JA)                   (202) 273-7321
Deputy Assistant IG for Real Property Audits             Rolando N. Goco (JA)                  (202) 501-2322
Chief of Staff                                           Peter J. Coniglio (JA)                (202) 501-0468
Program Manager, FAR Disclosure and False Claims
                                                         Paul J. Malatino (JA)                 (202) 208-0021
Act Resolution Program
Director, Audit Planning, Policy, and Operations Staff   Lisa L. Blanchard (JAO)               (202) 273-7271
Director, Administration and Data Systems Staff          Thomas P. Short (JAS)                 (202) 501-1366
DEPUTY ASSISTANT INSPECTOR GENERAL FOR AUDITING/REGIONAL INSPECTORS GENERAL FOR AUDITING/PROGRAM DIRECTORS

Northeast and Caribbean Region Audit Office              Steven D. Jurysta (JA-2)              (212) 264-8620
Mid-Atlantic Region Audit Office                         James M. Corcoran (JA-3)              (215) 446-4840
Southeast Sunbelt Region Audit Office                    Nicholas V. Painter (JA-4)            (404) 331-5125
Great Lakes Region Audit Office                          Adam R. Gooch (JA-5)                  (312) 353-7781
The Heartland Region Audit Office                        John F. Walsh (JA-6)                  (816) 926-7052
Greater Southwest Region Audit Office                    Paula N. Denman (JA-7)                (817) 978-2571
Pacific Rim Region Audit Office                          Hilda M. Garcia (JA-9)                (415) 522-2744
Acquisition Programs Audit Office                        Barbara Bouldin (JA-A)                (202) 273-7371
Finance and Information Technology Audit Office          Carolyn Presley-Doss (JA-F)           (202) 273-7323
Real Property Audit Office                               Marisa A. Roinestad (JA-R)            (202) 273-7241




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                                          5
                                                                            OIG OFFICES AND KEY OFFICIALS




 OFFICE OF INVESTIGATIONS

 Assistant IG for Investigations                       Geoffrey Cherrington (JI)           (202) 501-1397
 Deputy Assistant IG for Investigations                Lee Quintyne (JID)                  (202) 501-1397
 Director, Investigations Operations Division          Gerald R. Garren (JIB)              (202) 501-4583
 Director, Internal Operations Division                Bruce S. McLean (JII)               (202) 208-2384
 SPECIAL AGENTS IN CHARGE (SAC)

 Mid-Atlantic Regional Office                          SAC Christopher P. Cherry (JI-W)    (202) 252-0008
 Philadelphia Regional Office                          SAC James E. Adams (JI-3)           (215) 861-3550
 Northeast and Caribbean Regional Office               SAC James E. Adams (JI-2)           (215) 861-3550
 Boston Regional Office                                SAC Luis A. Hernandez (JI-1)        (617) 565-6820
 Southeast Regional Office                             SAC James Taylor (JI-4)             (404) 331-3084
 Ft. Lauderdale Resident Office                        ASAC Floyd Martinez (JI-4M)         (954) 356-6993
 Central Regional Office                               SAC Stuart G. Berman (JI-5)         (312) 353-7779
 Mid-West Regional Office                              SAC John F. Kolze (JI-6)            (816) 926-7214
 Denver Resident Office                                SA Sean Gomez (JI-8)                (303) 236-5072
 Southwest Regional Office                             SAC Paul W. Walton (JI-7)           (817) 978-2589
 Western Regional Office                               SAC David House (JI-9)              (415) 522-2755
 Laguna Niguel Resident Office                         ASAC Theresa Quellhorst (JI-9L)     (949) 360-2214
 Northwest Regional Office                             SAC Terry J. Pfeifer (JI-10)        (253) 931-7654




6                                 OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Statistics on OIG
Accomplishments
                                                                                 SUMMARY OF OIG PERFORMANCE




Summary of OIG Performance
April 1, 2013 – September 30, 2013

 OFFICE OF AUDITS
 Total financial recommendations                                                                $885,212,160
 These include:
     Recommendations that funds be put to better use                                            $826,868,219
     Questioned costs                                                                            $58,343,941
 Audit reports issued                                                                                    47
 Audit memoranda provided to GSA                                                                          9
 Management decisions agreeing with audit recommendations                                       $695,904,264


 OFFICE OF INVESTIGATIONS
 Referrals for criminal prosecution, civil litigation, & administrative action                          354
 Indictments and informations on criminal referrals                                                      47
 Cases accepted for criminal prosecution                                                                 34
 Cases accepted for civil action                                                                         10
 Successful criminal prosecutions                                                                        29
 Civil settlements                                                                                        8
 Contractors/individuals suspended and debarred                                                         172
 Employee actions taken on administrative referrals involving GSA employees                              20
 Civil settlements and court-ordered and investigative recoveries                               $143,723,750




8                                  OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
FISCAL YEAR 2013 RESULTS




Fiscal Year 2013 Results
During Fiscal Year 2013, OIG activities resulted in:

   >> Over $1.7 billion in recommendations that funds be put to better use and in
      questioned costs. If adopted, these recommendations ultimately result in savings
      for the taxpayer.

   >> 88 audit reports and 19 audit memoranda that assisted management in improving
      the efficiency and effectiveness of Agency operations.

   >> Over $1.1 billion in management decisions agreeing with audit recommendations;
      $253 million in criminal, civil, administrative, and other recoveries.

   >> 201 new investigations opened and 290 cases closed.

   >> 68 case referrals (105 subjects) accepted for criminal prosecution and 19 case
      referrals (27 subjects) accepted for civil litigation.

   >> 80 criminal indictments/informations and 56 successful prosecutions on criminal
      matters previously referred.

   >> 17 civil settlements.

   >> 33 employee actions taken on administrative referrals involving GSA employees.

   >> 172 contractor/individual suspensions and 194 contractor/individual debarments.

   >> 2,378 Hotline calls and letters received of which 34 were referred for criminal or
      civil investigations, 34 were referred to other agencies for follow up, and 111 were
      submitted to GSA for review and appropriate administrative actions.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                          9
                                                       STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS




Statistical Summary of
OIG Accomplishments
Reports Issued
The OIG issued 47 audit reports. The 47 reports contained financial recommendations
totaling $885,212,160 including $826,868,219 in recommendations that funds be
put to better use and $58,343,941 in questioned costs. Due to GSA’s mission of
negotiating contracts for government-wide supplies and services, most of the savings
from recommendations that funds be put to better use would be applicable to other
Federal agencies.


Management Decisions on Reports
Table 1 summarizes the status of the universe of reports requiring management
decisions during this period, as well as the status of those reports as of September
30, 2013. Table 1 does not include: 1 report issued to another agency this period,
5 implementation reviews that are excluded from the management decision process,
and 7 reports excluded from the management decision process because they pertain
to ongoing investigations.


Table 1. Management Decisions on OIG Reports
                                                                          REPORTS WITH               TOTAL
                                                          NUMBER             FINANCIAL           FINANCIAL
                                                       OF REPORTS    RECOMMENDATIONS*     RECOMMENDATIONS
For which no management decision had been made as of 04/01/2013
Less than six months old                                       24                  17        $568,911,376
Six or more months old                                          1                    1           $697,121
Reports issued this period                                     41                  29        $885,212,160
                                       TOTAL                   66                  47      $1,454,820,657
For which a management decision was made during the reporting period
Issued prior periods                                           20                  13        $504,795,556
Issued current period                                          22                  14        $191,108,708
                                       TOTAL                   42                  27        $695,904,264
For which no management decision had been made as of 09/30/2013
Less than six months old                                       19                  15        $694,103,452
Six or more months old                                          5                    5        $64,812,941
                                       TOTAL                   24                  20        $758,916,393

* These totals include audit reports issued with both recommendations that funds be put to better use and
  questioned costs.




10                            OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS




Management Decisions on Reports with
Financial Recommendations
Tables 2 and 3 present the reports identified in Table 1 as containing financial
recommendations by category (funds be put to better use or questioned costs).


Table 2. Management Decisions on OIG Reports with Recommendations that
         Funds Be Put to Better Use

                                                                          NUMBER           FINANCIAL
                                                                       OF REPORTS   RECOMMENDATIONS
For which no management decision had been made as of 04/01/2013
Less than six months old                                                      13      $566,229,789
Six or more months old                                                         1          $658,281
Reports issued this period                                                    22      $826,868,219
                                                          TOTAL               36    $1,393,756,289
For which a management decision was made during the reporting period
Recommendations agreed to by management                                       22      $691,706,447
Recommendations not agreed to by management                                    0                 $0
                                                          TOTAL               22      $691,706,447
For which no management decision had been made as of 09/30/2013
Less than six months old                                                      10      $637,748,547
Six or more months old                                                         4       $64,301,295
                                                          TOTAL               14      $702,049,842


Management Decisions on OIG Reports with Questioned Costs
Table 3. Management Decisions on OIG Reports with Questioned Costs

                                                                          NUMBER          QUESTIONED
                                                                       OF REPORTS              COSTS
For which no management decision had been made as of 04/01/2013
Less than six months old                                                      12         $2,681,587
Six or more months old                                                         1            $38,840
Reports issued this period                                                    18       $58,343,941
                                                          TOTAL               31       $61,064,368
For which a management decision was made during the reporting period
Disallowed costs                                                              17         $4,197,817
Cost not disallowed                                                            0                 $0
                                                          TOTAL               17         $4,197,817
For which no management decision had been made as of 09/30/2013
Less than six months old                                                       9       $56,354,905
Six or more months old                                                         5          $511,646
                                                          TOTAL               14       $56,866,551




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                               11
                                              STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS




Investigative Workload
The OIG opened 79 investigative cases and closed 140 cases during this period. In
addition, the OIG received and evaluated 31 complaints and allegations from sources
other than the Hotline that involved GSA employees and programs. Based upon our
analyses of these complaints and allegations, OIG investigations were not warranted.


Referrals
The OIG makes criminal referrals to the Department of Justice or other authorities for
prosecutive consideration, and civil referrals to the Civil Division of the Department
of Justice or to U.S. Attorneys for litigative consideration. The OIG also makes
administrative referrals to GSA officials on certain cases disclosing wrongdoing on
the part of GSA employees, contractors, or private individuals doing business with
the government.

During this period, the OIG also made 51 referrals to GSA officials for information
purposes only.


Actions on OIG Referrals
Based on these and prior referrals, 34 cases (59 subjects) were accepted for
criminal prosecution and 10 cases (11 subjects) were accepted for civil litigation.
Criminal cases originating from OIG referrals resulted in 47 indictments/informations
and 29 successful prosecutions. OIG civil referrals resulted in 8 case settlements.
Based on OIG administrative referrals, GSA management debarred 99 contractors/
individuals, suspended 73 contractors/individuals, and took 20 personnel actions
against employees.


Table 4. Summary of OIG Referrals

TYPE OF REFERRAL                           CASES                       SUBJECTS

Criminal                                     54                           92
Civil                                         9                           44
Administrative                               34                           51
Suspension                                   26                           77
Debarment                                    31                           90
TOTAL                                       154                          354




12                        OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS




Monetary Results
Table 5 presents the amounts of fines, penalties, settlements, recoveries, forfeitures,
judgments, and restitutions payable to the U.S. government as a result of criminal and
civil actions arising from OIG referrals. Table 6 presents the amount of administrative
recoveries and forfeitures as a result of investigative activities.


Table 5. Criminal and Civil Results*

                                                                           CRIMINAL                                       CIVIL

 Fines and Penalties                                                   $1,199,873
 Settlements                                                                                                    $87,093,647
 Recoveries                                                                                                       $4,453,354
 Forfeitures                                                         $16,888,265
 Seizures                                                                   $1,000
 Restitutions                                                        $32,284,624
 TOTAL                                                                $50,373,762                               $91,547,001


Table 6. Other Monetary Results


 Administrative Recoveries                                                                                        $1,812,970
 Forfeitures                                                                                                           $3,017
 TOTAL                                                                                                            $1,815,987


* An additional $8 million in investigative recoveries were not reported in the previous semiannual report for the period of
  October 1, 2013 – March 31, 2013. Network Appliance paid $2 million to resolve alleged false claims in connection with Network
  Appliance’s conduct when they migrated from their own Multiple Award Schedule contract to Immix Technology Inc.’s, Multiple
  Award Schedule contract. Additionally, the previous semiannual report reported that W. W. Grainger paid $70 million to resolve
  false claims related to its MAS contract when it in fact paid $76,180,274. Including these recoveries modifies our previously
  reported civil settlements and court-ordered and investigative recoveries figure from $101,940,034 to $110,120,308.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                                                          13
Management
Challenges
                                                             GSA’S SIGNIFICANT MANAGEMENT CHALLENGES




GSA’s Significant
Management Challenges
The Congress requested the Inspectors General of major federal agencies to report
on the most significant management challenges facing their respective agencies.
Our strategic planning process commits us to addressing these critical issues. The
following table briefly describes the challenges we have identified for GSA.



CHALLENGE                  BRIEF DESCRIPTION OF CHALLENGE

Acquisition Programs       GSA’s procurement organization awards and administers government-wide contracts
                           worth hundreds of billions of dollars. With growing programs and shrinking numbers
                           of qualified acquisition personnel, attention to important fundamentals such as
                           ensuring competition, meaningful price analysis, and implementation of statutory
                           and regulatory compliance-type requirements has diminished.

GSA’s Organizational       After centralizing both FAS and PBS regional budget and financial management,
Structure                  GSA’s Acting Administrator’s initiative for a Top to Bottom review of the agency’s
                           structure and operations requires an assessment of GSA’s current controls
                           and systems.

Consolidation of           As GSA physically consolidates the majority of its functions in Washington, D.C.,
Central Office Personnel   there is a lack of space to concurrently accommodate all employees. The shift to an
to 1800 F Street, NW       alternative workspace (hoteling, teleworking) poses new challenges to the operations
                           and supervision for the agency’s mobile workforce.

Information Technology     Improved planning, development, and implementation of Information Technology
                           systems and services is needed to ensure quality data and support business
                           decisions. GSA also needs to improve the protection of sensitive information and
                           address emerging risks associated with cloud computing.

Financial Reporting        GSA systems, including its financial system of record (Pegasys), continue to have
                           deficiencies in interoperability and interfaces. As a consequence, GSA management
                           continues to rely heavily on manual workarounds and significant adjusting entries to
                           prepare the financial statements and related note disclosures.

Protection of Federal      GSA is responsible for protecting the life and safety of employees and public visitors
Facilities and Personnel   at federal buildings. The increased risks from terrorism have greatly expanded the
                           range of vulnerabilities. A broadly integrated security program is required.

Greening Initiative        With its major role in federal building construction and operations, GSA faces
– Sustainable              challenges to lead change in achieving its goals for sustainability and a Zero
Environmental              Environmental Footprint.
Stewardship

American Recovery and      Mandated to obligate $5.5 billion for building projects within a 20-month period,
Reinvestment Act Impact    GSA’s shortened planning and contracting phases will likely result in continual
                           challenges as Recovery Act-funded projects move into the construction phase.




16                           OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Management Challenges
Acquisition Programs
GSA provides federal agencies with billions of dollars in products and services through
various contract types. As of September 30, 2013, there were over 18,500 Multiple
Award Schedule (MAS) contracts under GSA’s procurement program that generated
over $35.8 billion in annual sales. We oversee this program by conducting preaward,
postaward, and performance audits. Historically, for every dollar invested in our
preaward audits, we achieve at least $10 in lower prices or more favorable contract
terms and conditions for the benefit of the government and taxpayer.

Significant Preaward Audits

The pre-decisional, advisory nature of preaward audits distinguishes them from other
audit products. This program provides vital, current information enabling contracting
officers to significantly improve the government’s negotiating position to realize millions
of dollars in savings on negotiated contracts. During this period we performed preaward
audits of 32 contracts with an estimated value of almost $6.5 billion. We recommended
more than $826 million of funds be put to better use. Management decisions were made
on 22 preaward audit reports, which recommended over $691 million of funds be put to
better use. Management agreed with 100% percent of our recommended savings.

Three of our more significant audits were MAS contracts with combined projected
government sales of more than $1.01 billion. These audits resulted in recommendations
of nearly $587 million be put to better use. We identified the following significant
findings within one or more of our audit reports: current and proposed price reduction
clauses were ineffective; sales monitoring systems did not ensure proper administration
of the price reduction provisions of the contract; commercial customers received
greater discounts than those offered to GSA; commercial sales practice information
was noncurrent, inaccurate, and/or incomplete; controls over GSA sales reporting
were inadequate, resulting in incorrect reporting of sales and/or payment of the
Industrial Funding Fee (IFF); and vendors overbilled GSA for unallowable costs and
unqualified labor.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                      17
                                                                     MANAGEMENT CHALLENGES




Improper Management Intervention in Multiple Award Schedule Contracts,
Federal Supply Schedule 70 – Information Technology Contracts, Federal
Acquisition Service

Report Number A120161/Q/6/P13003, dated June 4, 2013

In the course of performing MAS contract audits, we identified numerous instances
where FAS management, based on complaints from contractors, overrode contracting
officer determinations without proper justification, pressured contracting officers to
extend or award contracts, and reassigned contracts to different contracting officers.
This audit disclosed that Federal Acquisition Service (FAS) management’s improper
intervention in the award and extension of MAS contracts resulted in contracts with
inflated pricing and/or unfavorable contract terms and extensions where contracting
staff had determined such a decision was not in the best interests of the United
States. By allowing contractors to circumvent contracting officers and supporting
the contractors’ positions, including reassigning contracts to different contracting
officers, FAS management undermined the integrity of the procurement process.
FAS management actions also compromised the authority of contracting officers and
adversely affected morale.

We recommended that the FAS Commissioner:

      >> Ensure that the contracting process is independent and free from FAS
         management interference due to contractor pressure. These steps should
         include:

        –– Requiring FAS management not to intervene in contracting actions in response
           to requests from contractors except for instances of misconduct or other
           serious administrative issues;

        –– Requiring FAS management to fully document all conversations and
           correspondence with contractor officials regarding specific contracts and
           offers, to include such information as date, time, participants, and specific
           details of information exchanged; and

        –– Issuing a memorandum expressing support for contracting staff making
           independent determinations, including decisions to not award contracts or
           contract extensions.

      >> Take appropriate action to either renegotiate or cancel the affected contracts.

      >> Take appropriate administrative action to address the FAS management and
         contracting staff conduct identified in this report.

The FAS Commissioner agreed with our report recommendations.




18                          OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Applicability of Price Reductions over the Maximum Order Threshold

Report Number A130068/Q/3/P13002, dated April 26, 2013

This audit disclosed that during the course of preaward audit work, two contractors
claimed that the plain language of contract clause I-FSS-125 does not require them to
provide price reduction discounts to GSA orders over the maximum order threshold
(maximum order). The failure of these contractors to pass on price reductions has
resulted in over $100 million in lost savings for GSA orders.

GSA disagrees with the vendors’ interpretation. We also found no evidence that
GSA intended for government orders above the maximum order to not receive price
reduction discounts. In fact, GSA’s intent was to put schedule vendors on notice that
they could accept orders over the maximum order and provide additional discounts
without penalty. However, vendors have asserted that the language used in the clause
does not clearly convey this.

Our audit also disclosed that the clause language is still present in some contracts.
While we concur with GSA’s position, the Agency needs to publish its interpretation
of this clause and remove the obsolete language from existing contracts. As long as
either the clause or its surviving language remains in schedule contracts, agencies may
not be receiving the intended benefit of price reduction discounts for orders over the
maximum order threshold.

We recommended that the FAS Commissioner:

   >> Immediately review all schedule contracts to determine if I-FSS-125 clause
      language is still incorporated, and if so take steps to remove it; and

   >> Publish GSA’s interpretation of I-FSS-125 clause language that government orders
      above the maximum order are entitled to price reduction discounts.

The FAS Commissioner agreed with our report recommendations.


Audit of GSA’s Controls over the National Capital Region’s Reimbursable Work
Authorizations

Report Number A120001/P/F/R13007, dated September 11, 2013

This audit disclosed that the National Capital Region (NCR) has not consistently
implemented Public Building Service’s (PBS) policies and procedures for managing
Reimbursable Work Authorizations (RWA). Therefore, NCR does not have assurance
that RWA operations are effective and efficient, compliant with applicable policies and
laws, or that RWA financial reporting is reliable. Specifically, NCR service centers did
not ensure: signatory authority or required training for accepting customers’ RWAs;
proper documentation supporting RWA funding and completion; timely contracting for
and close out of RWAs; effective communication with customer agencies; and clearly
defined and consistently implemented RWA policies and procedures.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                     19
                                                                   MANAGEMENT CHALLENGES




RWAs are agreements between PBS and a customer agency. RWAs are established
to capture and bill customer agencies for the cost of altering, renovating, repairing, or
providing services over and above basic operations financed through rent, in space
managed by PBS. Under these agreements, PBS provides the material(s) and/or
service(s) needed to accomplish the work and the customer agency reimburses GSA
for associated costs. The objective of our audit was to determine if GSA’s controls
over RWAs, as implemented by the NCR, ensure compliance with applicable policies
and laws.

We determined that RWAs were being accepted by personnel without proper authority,
RWA documentation did not always support the RWA funding amount or completion
date, and the contractual obligation and close-out of RWAs was not timely, in some
cases. Additionally, communication with customers was not always taking place as
required, especially with regard to the de-obligation of excess customer funds. Lastly,
certain policies and procedures over the RWA process have been interpreted differently
within the region leading to inconsistent practices.

NCR service centers have not adhered to internal control policies and guidance as
dictated in the RWA National Policy Document and the PBS Internal Controls Desk
Guide. In addition, certain policies and procedures over the RWA process from
submission and acceptance to completion and financial closeout need clarification and
consistent enforcement throughout the region.

We recommended that the NCR Regional Administrator:

      >> Develop and implement a plan to ensure existing controls are consistently applied
         at all NCR service centers and identify internal control system weaknesses to
         improve RWA management.

      >> Clarify and actively manage the policy regarding RWAs to ensure the service
         centers apply the policy consistently, and that RWAs are authorized at the
         appropriate levels.

The NCR Regional Administrator agreed with our report recommendations.


Audit of the Heartland Region Public Buildings Service’s Award and
Administration of Blanket Purchase Agreements GS-06P-07-GX-A-0009 and GS-
06P-08-GX-A-0076

Report Number A120140/P/6/R13005, dated April 4, 2013

This audit disclosed that for both Blanket Purchase Agreements (BPA), prior PBS
regional management provided insufficient information and oversight of the orders to
ensure useful deliverables were obtained and that costs did not exceed benefits. The
audit was performed to examine concerns within GSA of potential waste regarding
BPAs established under the Adams-Gabbert & Associates, LLC (Adams-Gabbert) MAS
contract. Specifically, the concerns related to whether orders placed under the BPAs
had measurable deliverables and whether the total contract value was commensurate
with those deliverables received.




20                         OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




From January 2007 through August 2010, multiple orders were issued against the
Adams-Gabbert BPAs to provide a variety of services requested by regional PBS
management. However, management did not provide sufficient information to develop
defined scopes of work and measurable deliverables, or the oversight needed to
ensure costs did not exceed benefits. As a result, PBS did not fully comply with the
FAR, the Competition in Contracting Act, or internal PBS guidance. The government
received limited benefit from the $2.6 million spent.

This report does not include recommendations because PBS regional management
responsible for the orders has been replaced. In addition, current PBS regional
management acknowledged the deficiencies with the BPAs and has already
implemented additional controls over contracting practices. We believe these controls
will ensure errors do not recur.

Current PBS regional management advised that business benefits were received from
the products Adams-Gabbert delivered but concurred that deficiencies were present.
The Heartland Regional Administrator did not take exception with our report.


Audit of GSA’s Award and Administration of Center of Excellence Task Orders,
Pacific Rim Region, Federal Acquisition Service

Report Number A120106/Q/9/P120106, dated July 16, 2013

This audit disclosed that one Center of Excellence task order did not include clearly
defined deliverables. Without clear and measurable deliverables, it is questionable
whether FAS could adequately assess the work performed. The objective of our audit
was to determine whether GSA adequately awarded and administered the two Center
of Excellence task orders in accordance with FAR and internal policies and procedures.

Overall administration of the two task orders reviewed required strengthening. We
found no evidence demonstrating that FAS reviewed supporting documentation before
approving invoices for payment. Consequently, there are concerns whether deliverables
were completed prior to payment.

Finally, we identified two funding issues: untimely return of unused funds and the
application of an incorrect funding source.

We recommended that the FAS Regional Administrator, Pacific Rim Region:

   >> Obtain supporting documentation to validate that all task order subtasks were
      addressed by the contractor and attempt to recoup funds for subtasks not
      performed.

   >> Develop an action plan to ensure that contracting staff adhere to FAS policies
      when developing contract requirements.

   >> Obtain missing monthly status reports and travel receipts to validate invoiced
      items and attempt to recoup unsupported items.

   >> Develop and implement procedures for project managers to review contractor
      reports and establish the report types required to validate work performed.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                     21
                                                                     MANAGEMENT CHALLENGES




      >> Require that all internal and contract administration documents needed to validate
         contractor payments are incorporated into IT Solutions Shop.

      >> Re-evaluate treating each period of performance as a separate task order for the
         purpose of promptly returning unused funds.

      >> Identify any additional unused funds from the option periods that have not been
         returned, in addition to the $109,000 in unused funds from the base period, and
         determine when the funds will be returned.

      >> Provide further training and guidance to regional staff on adhering to the written
         policy on using proper funding.

      >> Correct invoices with the wrong funding source for both the base and option
         periods and issue credits or rebills, as necessary.

The FAS Regional Administrator agreed with our report recommendations.


Review of GSA Conferences and Meetings, 2011 Federal Acquisition Service
Leadership Conferences – Orlando, Florida and Atlanta, Georgia

Memorandum Numbers A120130-04 and A120130-05, dated May 15, 2013

The memorandum for the FAS Leadership Conference in Orlando, Florida, disclosed
that conference acquisition and planning procedures did not comply with FAR
regulations, resulting in a flawed source selection methodology. The available evidence
indicates GSA preselected vendors, directing a procurement using a GSA Schedule
to give the appearance of satisfying FAR competition and price reasonableness
requirements.

During our review of the Orlando conference, we identified a similar, but smaller,
conference held in Atlanta, Georgia, several months before. Our inquiry into the Atlanta
conference disclosed that the procurement process was flawed and led to a directed
procurement. Contract files from the Atlanta conference were used as the basis for
developing the acquisition strategy and requirements for the Orlando conference. The
act of forwarding contracting officer file information to another GSA office to be used as
a guide would normally be a prudent, efficient, and effective practice. However, if the
original procurement is flawed, the result is a second flawed procurement.

Our objective for the two reviews was to determine if conference acquisition
procedures were compliant with the FAR and whether additional audit or investigative
inquiries were warranted.




22                          OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Information Technology
Improved planning, development, and implementation of information technology (IT)
systems and services are needed to ensure quality data and to support business
decisions. GSA management faces challenges in meeting two strategic business
goals of (1) providing effective and reliable IT systems and solutions, and (2) providing
balanced stewardship of information and technology. Challenges exist because GSA
systems often do not integrate with each other, resulting in duplication of business
processes, cost inefficiencies, and customer dissatisfaction.


Audit of GSA’s Mobile Computing Initiatives

Report Number A130016/O/F/F13003, dated September 10, 2013

This audit disclosed that GSA lacks comprehensive standards for mobile application
security, privacy, and development, increasing risk to deployed mobile applications;
Office of the Chief Information Officer (OCIO) guidance on mobile device acquisition
does not sufficiently address risks associated with brand name specifications and
could result in excessive expenditures and contractor protests to awards; and GSA’s
mobile device assessment process was not documented, which could result in
knowledge loss due to personnel disruptions.

GSA’s IT strategic goal is to provide access to Agency systems and data from Any
Location, Anytime, and Any Device (A3). Two of the initiatives supporting this goal
include securing access to GSA’s IT resources and systems for the GSA workforce
regardless of how, where, or when they are working and modernizing systems to
enable A3. The objective of this audit was to determine whether the implementation
of initiatives for mobile devices and mobile applications was consistent with this IT
strategic goal, A3, and the White House’s Digital Government Strategy.

GSA is making progress in its IT strategic goal to provide enhanced mobile access to
GSA systems and data. First, GSA fulfilled milestone actions related to mobile devices
and mobile applications under the White House’s Digital Government Strategy by
prioritizing two existing, major, customer-facing services for modernization. Second, our
evaluation of the mobile device management platform identified that it enforces security
controls for mobile devices in accordance with GSA requirements. Third, user training
on mobile devices informs users of mobile-specific security concerns. Fourth, GSA
reviews terms of service for mobile applications before approval for agency use.

However, GSA can strengthen the implementation of its mobile computing initiatives
by: developing comprehensive standards for mobile application security, privacy, and
development; ensuring that mobile applications undergo required security assessment
and authorizations and meet updated standards; providing guidance on mobile device




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                         23
                                                                    MANAGEMENT CHALLENGES




acquisition that sufficiently addresses risks associated with brand name specifications
to prevent excessive expenditures and contractor protests; and documenting
processes to ensure continuity of GSA’s mobile device assessments to prevent
knowledge loss in case of personnel disruptions.

We recommended that the Chief Information Officer:

      >> Develop comprehensive standards for mobile applications including:

        –– Security standards to address the following risks:

           •	 Exploitation of vulnerabilities due to poor programming practices

           •	 Compromise of sensitive application data

           •	 Incomplete security assessment and authorization requirements

        –– Privacy standards to include directions on creating and distributing
           privacy notices.

        –– Development standards to identify mobile platforms to target for publicly
           available applications.

      >> Ensure that currently deployed mobile applications meet the updated standards.

      >> Issue guidance and/or training related to tablet device acquisition to remind
         acquisition personnel about requirements for brand name specifications.

      >> Formally document the process for reviewing mobile devices.

The CIO agreed with our report recommendations.




24                          OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Greening Initiative – Sustainable Environmental Stewardship
With its major role in federal building construction, operations, acquisitions, and policy,
GSA faces challenges to lead change in achieving its goals for sustainability and a Zero
Environmental Footprint.


Assumptions Used in Payback Calculation for Photovoltaic Systems at the Bean
Federal Center May Distort Cost-Effectiveness Results

Memorandum Number A130115, dated September 24, 2013

Our review disclosed that the assumptions used in the payback calculation of the
Green Proving Ground’s study on the photovoltaic systems at the Major General
Emmett J. Bean Federal Center (Bean Federal Center) could result in misleading
cost-effectiveness decisions for photovoltaic systems. Green Proving Ground
evaluates innovative, sustainable building technologies and practices for GSA’s real
estate portfolio. The Agency then uses these findings to support the development of
performance specifications to enhance decision-making within GSA, other federal
agencies, and the real estate industry.

Green Proving Ground assessed the technology’s lifespan using a simple payback
calculation. The payback calculation took into account a Renewable Energy Production
(REP) contract that provides a monetary incentive to produce on-site solar energy.
The payback calculation included the assumption that the contract incentive would
continue beyond its 10-year term. At the time, Green Proving Ground considered this to
be the most reasonable and likely scenario. However, we found that the REP incentive
program has been discontinued, resulting in a high risk that the initial investment may
not be recovered.

Furthermore, Green Proving Ground subsequently issued guidance on the
implementation of photovoltaic systems at the Bean Federal Center. Its guidance stated
that the REP incentive provided by the power company is essential to making the
photovoltaic system cost-effective.

The PBS Commissioner agreed with our results.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                      25
                                                                    MANAGEMENT CHALLENGES




American Recovery and Reinvestment Act Impact
The Recovery Act provided GSA with a $5.55 billion appropriation for its Federal
Buildings Fund to convert federal buildings into High-Performance Green Buildings,
as well as to construct federal buildings, courthouses, and land ports of entry. The
Recovery Act mandated that $5 billion of the funds be obligated by September 30,
2010, and the remaining funds by September 30, 2011. Under this mandate GSA’s
project teams have had to plan and contract for projects within extremely short
timeframes. Even with the addition of new employees and contract support staff,
meeting these deadlines has strained the capabilities of the project teams before the
beginning of actual construction for these projects. The OIG is conducting oversight
activities including internal audits, attestation engagements, and audit memorandums of
construction and modernization projects funded by the Recovery Act.


American Recovery and Reinvestment Act of 2009
Recovery Act Report – Termination of Original Group 7 Award
Review of PBS’s Limited Scope and Small Construction Projects Funded by the
American Recovery and Reinvestment Act of 2009

Report Number A090184/P/R/R13006, dated April 15, 2013

This audit of PBS’s termination of the original Group 7 (Lyndon B. Johnson
Building and 601 4th Street, NW, Washington Field Office) contract disclosed three
procurement and policy violations: PBS insufficiently documented the contract
termination; inappropriately waived the bid guarantee; and made an insufficient price
reasonableness determination. We initiated this audit as part of our ongoing review of
the NCR’s limited scope and small construction projects.

We recommended that the Regional Administrator, National Capital Region:

      >> Strengthen the document control process for terminating contracts to ensure
         compliance with the FAR;

      >> Implement policies, processes, and procedures to ensure that bid guarantee
         waivers are used only when necessary, proper approvals are obtained, and
         waivers are fully documented; and

      >> Establish a document control process to ensure contract files fully support the
         price reasonableness determination.

PBS management agreed with our report recommendations.




26                         OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




PBS Violated Price Competition Requirements on the Construction Services
Contract for the Recovery Act Project at the Joseph P. Kinneary United States
Courthouse in Columbus, Ohio

Audit Memorandum Number A090184-64, dated July 9, 2013

Our review disclosed that PBS provided pricing information, based wholly or partially on
government cost estimates, in the request for proposals. This violated the competition
requirements of the Competition in Contracting Act, the FAR, and the General Services
Acquisition Manual.

As part of our Recovery Act oversight, the objective was to determine if PBS awarded
and administered contracts for limited scope and small construction projects in
accordance with prescribed criteria and mandates.

On December 15, 2009, PBS awarded a pair of task order options to the Berglund
Construction Company for lighting and building systems replacement and façade
restoration services, including design stage services, for a total contract value of
$17,598,248.

PBS officials concurred with our findings. They stated that regional contracting staff
awarded the Construction Manager as Constructor contracts using guidance provided
to them at the time; however, subsequent Construction Manager as Constructor
contracts are following new guidance and management controls.


Other Initiatives
The FAR requires government contractors to disclose credible evidence of violations
of federal criminal law under Title 18 of the United States Code (18 U.S.C.) and the
False Claims Act to agencies’ OIGs. To facilitate implementation of this requirement, we
developed internal procedures to process, evaluate, and act on these disclosures and
created a website for contractor self-reporting.


FAR Rule for Contractor Disclosure

Effective December 12, 2008, the Civilian Agency Acquisition Council and the Defense
Acquisition Regulations Council agreed on a final rule amending the FAR. The final rule
implements the Close the Contractor Fraud Loophole Act, Public Law 110–252, Title
VI, and Chapter 1. Under the rule, a contractor must disclose, to the relevant agency’s
OIG, credible evidence of a violation of federal criminal law (within 18 U.S.C.) involving
fraud, conflicts of interest, bribery, or the offering or acceptance of gratuities connected
to the award, performance, or credible evidence of a violation of the Civil False Claims
Act, connected to the award, performance, or closeout of a government contract
performed by the contractor or subcontractor. The rule provides for suspension or
debarment when a principal knowingly fails to disclose, in writing, such violations in a
timely manner.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                       27
                                                                  MANAGEMENT CHALLENGES




Disclosures for this Reporting Period

As disclosures are made, the Offices of Audits, Investigations, and Counsel jointly
examine each acknowledgment and make a determination as to what actions, if any,
are warranted. During this reporting period, we received nine new disclosures. The
matters disclosed included: improper taxes, surcharges, and excise fees; product
import irregularities; false business status representation; failures to comply with
contract requirements related to CSP disclosures, billings, price reduction monitoring,
and the Trade Agreements Act (TAA). We concluded our evaluation of 10 existing
disclosures that resulted in $6,521,222 in settlements and recoveries to the government
and assisted on four disclosures referred by another agency because of their potential
impact on GSA operations. Finally, we continued to evaluate 41 existing disclosures
during this reporting period.


Government Contractor Significant Report Findings

The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires
each Inspector General appointed under the Inspector General Act of 1978 to submit
an annex on final, completed contract audit reports issued to the contracting activity as
part of its Semiannual Report to the Congress. The annex addresses significant audit
findings – unsupported, questioned, or disallowed costs in excess of $10 million – or
other significant contracting issues. During this reporting period, this office issued one
contract audit report that met these requirements.

We initiated a review of a multiple award schedule contract with Northrop Grumman
Information Technology, Inc. (NGIT) as a result of contractor-disclosed overbillings.
On March 25, 2009, NGIT notified the GSA contracting officer it had overcharged
some GSA customers. NGIT stated that the overcharges occurred because it did not
grant a 20 percent discount on work performed at government facilities, as required
under the contract’s Agency CONUS Facility Discount clause. In January 2012, NGIT
disclosed additional overbillings for non-compliant labor performed by subcontractors.
The objective of the postaward audit was to determine if NGIT computed overbillings in
accordance with contract requirements and applicable laws and regulations.

During our review, we found that NGIT’s refund calculation is understated and it
overbilled schedule contract customers for subcontract labor. As a result, NGIT owes a
total refund of $53,271,251 comprised of $22,088,998 for its non-compliance with the
Agency CONUS Facility Discount clause of its schedule contract and $31,182,253 for
non-compliance with Federal Acquisition Regulation 52.232-7 Payments under Time-
and-Materials and Labor-Hour Contracts. Pursuant to a separate overbilling error, NGIT
owes $53,907.




28                       OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Significant Investigations
SIGNIFICANT INVESTIGATIONS




Significant Investigations
GSA is responsible for providing working space for one million federal employees.
The Agency also manages the transfer and disposal of excess and surplus real and
personal property and operates a government-wide service and supply system. To
meet the needs of customer agencies, GSA contracts for billions of dollars’ worth
of equipment, supplies, materials, and services each year. We conduct reviews
and investigations in all these areas to ensure the integrity of the Agency’s financial
statements, programs, and operations, and that the taxpayers’ interests are protected.
In addition to detecting problems in these GSA programs and operations, the OIG is
responsible for initiating actions and inspections to prevent fraud, waste, and abuse
and to promote economy and efficiency. When systemic issues are identified during
investigations, they are shared with GSA management for appropriate corrective action.
During this period, civil, criminal, and other monetary recoveries totaled over $143
million (see Tables 5 and 6).


Civil Settlements

Qui Tam Complaint Leads to $60.9 Million Recovery

On August 19, 2013, Ohio-based RPM International, Inc., and its subsidiary, Tremco
Incorporated, paid $60.9 million to resolve allegations that Tremco filed false claims
in connection with two GSA multiple award schedule contracts for roofing supplies
and services. The settlement was reached following coordinated efforts by the DOJ
Commercial Litigation Branch, the GSA OIG and the Office of the U.S. Attorney for the
District of Columbia. The settlement follows an investigation that revealed that Tremco
failed to provide current, accurate and complete pricing information to GSA and failed
to comply with the price reduction clauses of its GSA contracts. It was also alleged
that Tremco sold certain roofing materials to government purchasers through the GSA
contracts without disclosing the availability of lower-cost identical materials.


Gallup Agrees to Pay $10.5 Million to Settle Improper Contract Award Claims

On July 12, 2013, the Gallup Organization agreed to pay the United States $10,500,000
to settle allegations that it improperly inflated contract prices and engaged in prohibited
employment negotiations with a FEMA Official. GSA OIG and DOJ investigated after
a former Gallup employee filed a quit tam complaint alleging that Gallup knowingly
overstated its estimated labor hours in proposals for contracts and task orders by
the U.S. Mint and the State Department, and attempted to hire former FEMA director
Timothy Cannon after he influenced the contract award in favor of Gallup.

On April 9, 2013, Timothy Cannon had pled guilty to conflict of interest, and was
sentenced to 24 months of supervised release and 250 hours of community service,
and ordered to pay a $40,000 fine and a $100 court assessment fee.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                      31
                                                                SIGNIFICANT INVESTIGATIONS




SAIC Agrees to Pay $5.75 Million to Settle Qui Tam

On June 6, 2013, Science Applications International Corporation (SAIC) agreed to
pay the United States $5.75 million to resolve a qui tam complaint alleging that it had
violated the False Claims Act. In 2006, SAIC was awarded a contract for the provision
of professional engineering and consulting services related to the evaluation of new
products and emerging technologies. A joint investigation by the GSA OIG, Army CID
MFPU, DCIS, AFOSI, the USAO in the Middle District of Florida, and the Commercial
Litigation Branch of DOJ’s Civil Division revealed that SAIC knew that it had received
orders in violation of federal contracting competition requirements.


Criminal Investigations

Government Contractor Sentenced After Accessing Competitor’s
Computer System to Rig Bids

On July 19, 2013, Robert Steele was sentenced to 48 months of incarceration
and a fine of $50,000, and ordered to pay restitution of $335,977.68 and a special
assessment of $1,250. On May 3, 2013, he was convicted of unauthorized access
to protected computers. Steele had illegally accessed a former employer’s computer
network to access email and voicemail systems over 79,000 times during a two-year
period to obtain proprietary and sensitive information. He leveraged this information on
behalf of his current employer to undercut a government contract bid (submitted by
his former employer) by approximately $100,000. Though his employer did not win the
contract, Steele continued to sift through thousands of documents to obtain sensitive
information to use for his advantage.


Seven Sentenced and One Convicted in Ongoing Major Fraud/Bribery
Investigation in Northern Virginia

Between June 21, 2013, and July 26, 2013, Keith Hedman, the former owner of
Protection Strategies, Inc. (PSI); and David Sanborn, the former president; David Lux,
the former controller; Joseph Richards, a former employee; and Dawn Hamilton, the
owner and president of Security Assistance Corporation (SAC), were sentenced to
prison terms ranging from 15 to 72 months. In addition, Derrick Matthews, a former
Regional Director for FPS, was sentenced to a prison term of 15 months, and John
Hertogs, the director of operations for Security Assistance Corporation, was sentenced
to 24 months of probation. These sentences follow a joint investigation conducted
by the GSA OIG, NASA OIG, SBA OIG, DHS OIG and DCIS that revealed that PSI
employees specifically created SAC as a fraudulent 8(a) disadvantaged business which
was in fact controlled by PSI. In furtherance of the scheme, officials at PSI and SAC
submitted falsified documents to the SBA to gain 8(a) status and set-aside contracts
with NASA, DOD, GSA and other agencies. The group also conspired to bribe the FPS
official. The defendants have also been ordered to pay restitution, forfeiture and fines
totaling over $11.8 million.




32                      OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
SIGNIFICANT INVESTIGATIONS




Five Arrested for Bribing GSA Officials

In September 2013, GSA OIG special agents arrested five subjects for bribery in
connection with a lengthy investigation that revealed that a company’s owners had
bribed a GSA building manger to obtain contracts for painting and other maintenance
services at federal facilities in Maryland. Through the cooperation of other GSA building
managers, GSA OIG special agents identified four additional contractors who had paid
bribes in exchange for service and maintenance contracts.


Company Owner Sentenced for Bribing GSA Building Manager

On April 2, 2013, Andre Lipford, owner of Sun Development, was sentenced to ten
months of incarceration and one year of supervised release, and ordered pay a $100
court assessment fee. Lipford paid bribes to a GSA building manager in exchange for
winning a contract for work to be completed at GSA facilities in Maryland. The building
manager reported the bribes to GSA OIG special agents and cooperated with the
government. Lipford pled guilty in January 2013.


Company Owners Sentenced for Bribing Navy Officials

On May 20, 2013, Robert Ehnow, the owner and president of L&N Industrial Tool &
Supply, Inc., was sentenced to 36 months in prison, 36 months of supervised release,
a $200 mandatory assessment and $759,937 in restitution, and Joanne Loehr, the
owner and operator of Centerline Industrial, Inc., was sentenced to 36 months of
imprisonment followed by 36 months of supervised release, a $500 mandatory
assessment, and $300,000 in restitution. Centerline, Inc., was sentenced to five years
probation, a $500 mandatory assessment and $1,809,257 in restitution/forfeiture.
Previously, in August 2012, Ehnow, Loehr, and Centerline were indicted for conspiring
with U.S. Navy officials at the Naval Air Station North Island to commit bribery,
wire fraud, and money laundering. Eight additional defendants also pled guilty to
participating in the wide-ranging fraud and corruption scheme.

The defense contractors had provided Navy officials with over $1 million in personal
benefits, including cash, checks, retail gift cards, flat screen television sets, luxury
massage chairs, home appliances, bicycles, model airplanes, and home remodeling
services. In return, the Navy officials placed millions of dollars in fraudulent orders with
the defense contractors.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                        33
                                                                SIGNIFICANT INVESTIGATIONS




Business Owners Found Guilty of Creating Pass-through Company to
Bilk Air Force of Millions

On April 25, 2013, Don Brewer, Sherri Brewer and James McKinney were found guilty
of conspiracy, wire fraud, and major fraud. In January of 2011, retired Air Force Colonel
Sidney Brandler of the U.S. Air Force Medical Support Agency had pled guilty to
misprision of a felony in connection with the same scheme. Investigation conducted by
GSA OIG and AFOSI special agents revealed a complex fraud scheme orchestrated
by Donald Brewer, who was employed by KARTA Technologies, Inc., as a program
manager, and McKinney, who served as the Vice President of Government Systems for
Ark Systems, Inc. These companies contracted with the Air Force for various technical
services for government medical facilities worldwide.

The defendants created a sham subcontracting business, Enterprise and Deployment,
LLC, which would serve as an extra subcontractor between prime contractors and
Ark, and bill for work that was not performed. Enterprise and Deployment secured
approximately $33.5 million in subcontracts from the Air Force and caused prime
contractors to overcharge the Air Force, enriching the defendants by nearly $6.5 million.


GSA Employee Pleads Guilty to False Statements and Witness Tampering

On June 13, 2013, former GSA Employee Steven Underhill pled guilty to making false
statements and witness tampering. Underhill had attempted to conceal an improper
relationship with a government contractor by lying to special agents and threatening
a witness. Underhill was arrested on August 16, 2012, at his home in Las Vegas;
sentencing is scheduled for October of 2013.


Company President Sentenced for Wire Fraud; Employee Pleads Guilty to
Obstruction of Justice

On June 27, 2013, the president of B&J Multi Service Corporation was sentenced to
six months of home detention, two years of probation, $38,000 in asset forfeiture,
200 hours of community service, and a special assessment of $100. The company’s
vice president was sentenced to one year and one day of imprisonment, two years’
supervised release, $399,000 in asset forfeiture, and a special assessment of $100.
These sentences follow their previous guilty pleas for conspiracy to commit wire fraud.
A GSA OIG investigation based on a GAO referral revealed that B&J Multi Service
Corporation had submitted statements to the GSA, SBA, and other government
agencies that falsely represented the company as a minority and service-disabled
veteran owned business to obtain government contracts set aside for such companies.

On June 11, 2013, another former employee of B&J Multi Service Corporation pled
guilty to obstruction of justice: he had been served with a grand jury subpoena
for records relating to his business dealings and subsequently deleted responsive
documents from his computer. On June 21, 2013, he was suspended from doing
business with the government.




34                      OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
SIGNIFICANT INVESTIGATIONS




Company Owner Indicted for Fictitious Surety Bond Scheme

On July 11, 2013, Abel Carreon, CEO and senior escrow manager for Tripartite
Escrow Corporation (TEC), was indicted on 23 charges of mail fraud, wire fraud,
aggravated identity theft, money laundering and major fraud. Carreon was arrested by
U.S. Customs and Border Protection inspectors on July 17, 2013, when he crossed
the border from Mexico into the United States. A joint investigation conducted by
special agents from the GSA OIG, DOI OIG, DOT OIG, DCIS, AFOSI, Army CID, USDA
OIG, and DHS OIG revealed that Carreon and TEC provided bonds to numerous
government contractors that were required to submit payment bonds and performance
bonds as a condition of their contracts. However, TEC’s bonds were apparently
backed by fraudulent securities, and Carreon forged notary signatures and stamps on
documents that were submitted to GSA and other government agencies.


Company President Sentenced for Destruction and Falsification of Documents

On June 21, 2013, Andy Persaud, the owner of Persaud Companies, Inc. (PCI), was
sentenced to 24 months of incarceration and three years of supervised release, and
ordered to pay restitution in the amount of $720,000 and a $100 special assessment.
On March 14, 2013, Persaud pled guilty to destruction, alteration, or falsification of
records in a federal investigation and bank fraud. A confidential source informed GSA
OIG special agents that Persaud had instructed his employees to destroy documents
and fabricate fictitious documents in response to an inspector general subpoena.
Persaud had fraudulently secured a $1.6 million line of credit from the Bank of
Georgetown by posting collateral in the form of forged government contract invoices.


Roofing Company sentenced for False Certified Payrolls on
Roof Replacement Project

On April 15, 2013, Quality Roofing, Inc., of Ann Arbor, Michigan, was sentenced to pay
a fine of $75,000, along with restitution in the amount of $19,197 and a $3,600 special
assessment. Previously, Keisia Connelly, owner and president of Quality Roofing, had
pled guilty to making false statements. The company had submitted fraudulent certified
payrolls for its work as a sub-contractor on the roof replacement project at the Kenneth
B. Keating Courthouse and federal office building in Rochester, New York. The case
was jointly investigated with DOL OIG.


West Virginia City Official Sentenced in FEMA Trailer Scheme

On August 19, 2013, John Shingler, foreman for the City of Piedmont, West Virginia,
was sentenced to three months of incarceration and one year of probation, and
ordered to pay $3,000 in restitution. This sentence follows Shingler’s guilty plea to
theft. A joint investigation by the GSA OIG and the West Virginia State Police revealed
that Shingler and two other City of Piedmont officials conspired to purchase six FEMA
trailers, valued at $18,500 each, through the West Virginia State Agency for Surplus
Property for $1,000 per unit. However, the trailers were converted to the personal use
of two city officials and three other individuals, and not used by the City of Piedmont.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                      35
                                                                  SIGNIFICANT INVESTIGATIONS




Two City Officials Indicted for Selling Federal Excess Property

On May 29, 2013, two Tanana, AK officials were indicted for wire fraud and theft from
a local government that was receiving federal funds. An investigation conducted in
cooperation with the FBI revealed that that the two personally profited from the sale
of approximately $1 million in federal property they acquired through GSA’s Federal
Excess Personal Property Utilization Program on behalf of the city.


California Man Indicted for Defrauding GSA’s CFL Program

On June 26, 2013, a California resident was indicted for wire fraud, mail fraud and
aggravated identity theft stemming from his scheme to defraud GSA’s Computers for
Learning (CFL) program. The CFL program allows government agencies to transfer
excess computer equipment to schools and educational nonprofit organizations.
The subject created multiple fictitious charitable entities, and then falsely certified to
GSA that these entities were eligible recipients under the CFL program. Ultimately,
he fraudulently acquired computer equipment with a total acquisition value of
approximately $30 million. This GSA OIG-led investigation was worked jointly with IRS
Criminal Investigation, DOT OIG, VA OIG, DOE OIG, DOJ OIG, and the FBI.


Army Corporal and His Wife Plead Guilty to Theft

On April 8, 2013, Corporal Bo Dukes and his wife, Emily Dukes, pled guilty to
conspiracy to steal over $150,000 worth of property billed to the Army. This joint
GSA OIG and Army CID Major Procurement Fraud Unit investigation was initiated
after a GSA employee reported the suspicious delivery of items ordered through
the GSA Advantage program. The ensuing investigation determined that Dukes
ordered televisions, cameras, power tools, copper wires, and other property, which
he fraudulently billed to the Army through GSA Advantage. After receiving the items,
Dukes and his wife would then pawn or sell them. Agents were able to recover a
portion of the items after they determined Dukes was storing them at a private storage
unit as well as at his residence in Savannah, Georgia.




36                       OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
SIGNIFICANT INVESTIGATIONS




Former Chief Warrant Officer Sentenced for Exploiting Army’s
GSA Advantage System

On May 28, 2013, former Chief Warrant Officer Sebastian Oyegun II was sentenced to
30 months in federal prison for the theft of government property. In addition, Oyegun
was ordered to pay restitution in the amount of $10,205,304.05, and ordered to
forfeit three vehicles, $70,000 in cash, and more than $250,000 held in various bank
accounts. A joint investigation by the GSA OIG, the FBI, the National Joint Terrorism
Task Force, and the Army CID Major Procurement Fraud Unit was undertaken after
an Army audit revealed unauthorized purchases from the GSA Advantage system.
Subsequent review of delivery receipts and GSA Advantage disclosed that items valued
at over $10 million were shipped to various addresses across the country controlled
by Oyegun. Between 2009 and 2011, he fraudulently purchased high-end engineering
equipment, power tools, and computer equipment through the GSA Advantage
program. Oyegun sold the items at local swap meets, on Craigslist, and elsewhere.


CPSC Investigator Pleads Guilty to Unlawfully Using Government Fleet Card

On August 16, 2013, Nidia Y. Holmes was charged with misdemeanor theft. A GSA OIG
investigation revealed that Holmes, who was employed as a product safety investigator
for the Consumer Product Safety Commission, improperly used the government fleet
credit card assigned to her to fuel her personal vehicle and vehicles belonging to
her family members. When confronted with video footage, Holmes admitted to the
unlawful purchases. The total loss was estimated at $5,366.71.


Subject Charged with Theft After Purchasing Gasoline for Himself and
Others with Government Fleet Card

On August 9, 2013, Mario Flores was charged with theft. GSA OIG special agents
had learned that Flores fraudulently used a government fleet credit card assigned
to the Pascua Yaqui Tribe in Arizona to buy gas for his own personal use and to
fuel the vehicles of other gas station customers in exchange for cash. The total loss
was $27,620.86.


Former NAS PAX Contractor Pleads Guilty to Paying for Gasoline with
Government Fleet Card

On June 12, 2013, Richard McClain and Kalle Wyatt pled guilty to theft. GSA’s Loss
Prevention Team initially reported that a government fleet credit card assigned to the
Patuxent Naval Air Station had been used for suspicious purchases. Subsequent
investigation revealed that McClain, who was employed as a contractor at the Patuxent
Naval Air Station, unlawfully used the credit card on 128 occasions to fuel his personal
vehicle at gas stations. McClain also gave the credit card to his brother-in-law, Kalle
Wyatt, who sold gas he purchased with the card.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                     37
                                                                  SIGNIFICANT INVESTIGATIONS




Pentagon Employee Sentenced for Personal Use of Government Fleet Card

On September 9, 2013, Kwame Hammonds was sentenced to two years of supervised
release and ordered to pay $9,656.81 in restitution as the result of his May 13, 2013,
guilty plea to theft. A review of GSA’s fleet database disclosed anomalies associated
with a fleet credit card assigned to the Pentagon. Investigation led to the identification
of Hammonds and the discovery that he used the credit card assigned to his work unit
to fuel his personal vehicle throughout the Baltimore, Maryland, and Washington, D.C.,
metropolitan areas, resulting in a total loss of $9,656.81.


Veterans Affairs Employee Sentenced to Prison

On August 9, 2013, Geoffrey Parker, a mail clerk for the VA, was sentenced to 50 days
of incarceration, three years of supervised probation, and 100 hours of community
service, and ordered to pay restitution in the amount of $6,937. Parker previously pled
guilty to New Jersey state theft violations after a joint investigation with the VA OIG and
the Special Investigations Unit of the New Jersey Somerset County Prosecutor’s Office
reveled he used two government fleet cards for personal purchases. The GSA Loss
Prevention Team had initially identified suspicious transactions associated with the two
credit cards, and reported them to investigators.


WPA Era Art Recovery Efforts

As a direct result of the cooperative efforts between the OIG and GSA’s Office
of the Chief Architect, Fine Arts Division (FAD), a total of 73 lost Works Progress
Administration (WPA) pieces of artwork were recovered during this reporting period.
These pieces of American history are not subject to public sale, but their comparative
value totals approximately $81,400; while the historic value of these pieces of American
artwork is immeasurable. The FAD will be conserving the pieces before placing them
on loan to institutions across the country for public display. Since the inception of the
cooperative recovery efforts between the OIG and the FAD, a total of 187 pieces of lost
artwork have been recovered with a comparative value of $2,677,350.


New Deal Artwork Recovered by GSA OIG Agents

On June 21, 2013, GSA OIG special agents took possession of New Deal-era artwork
valued at $71,000 from the son of a former teacher at Clinton High School in New York,
New York, where the artwork was once located. The teacher had previously taken the
artwork for safekeeping.


Internal Operations
In 2011, the Office of Investigations created an Internal Operations Division as a central
source of agency data and law enforcement intelligence in support of field operations.
The new office also established a Senior Official Misconduct Investigations Program to
investigate allegations of misconduct and criminal activity involving executives, senior
managers, and program officials.




38                       OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
SIGNIFICANT INVESTIGATIONS




Internal Operations concluded its investigation into employee misconduct allegations
stemming from the 2010 FAS awards celebration. The investigation revealed that GSA
personnel had engaged in long-standing practices that violated numerous GSA orders.
The OIG referred the completed investigation to GSA for administrative action. In the
past year, GSA has undertaken significant management reorganization to centralize
conference planning and travel to ensure accountability and internal controls.


Suspension And Debarment Initiative
GSA has a responsibility to ascertain whether the people or companies it does
business with are eligible to participate in federally-assisted programs and
procurements, and that they are not considered “excluded parties.” Excluded parties
are individuals and companies debarred, suspended, proposed for debarment, or
declared ineligible to receive contracts by a federal agency. The FAR authorizes an
agency to suspend or debar individuals or companies for the commission of any
offense indicating a lack of business integrity or business honesty that directly affects
the present responsibility of a government contractor or subcontractor. The OIG has
made it a priority to process and forward referrals to GSA, so GSA can ensure that the
government does not award contracts to individuals or companies that lack business
integrity or honesty.

During this reporting period, the OIG made 167 referrals for consideration of
suspension/ debarment to the GSA Office of Acquisition Policy. GSA issued
172 actions based on current and previous OIG referrals.


Integrity Awareness
The OIG presents Integrity Awareness Briefings nationwide to educate GSA
employees on their responsibilities for the prevention of fraud and abuse. This period,
we presented 27 briefings attended by 368 regional and Central Office employees.
These briefings explain the statutory mission of the OIG and the methods available for
reporting suspected instances of wrongdoing. In addition, through case studies, the
briefings make GSA employees aware of actual instances of fraud in GSA and other
federal agencies and thus help to prevent their recurrence. GSA employees are the first
line of defense against fraud, abuse, and mismanagement. They are a valuable source
of successful investigative information.


Hotline
The OIG Hotline provides an avenue for employees and other concerned citizens to
report suspected wrongdoing. Hotline posters located in GSA-controlled buildings
encourage employees to use the Hotline. We also use our FraudNet Hotline platform
to allow internet reporting of suspected wrongdoing. During this reporting period, we
received 1076 Hotline contacts. From these contacts, 93 Hotline cases were initiated. In
53 of these cases, referrals were made to GSA program officials for review and action as
appropriate, 31 were referred to other federal agencies for follow-up, 17 were referred for
OIG criminal/civil investigations or audits, and 23 did not warrant further review.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                      39
                                                    FORENSIC AUDITING, EVALUATION, AND ANALYSIS




Forensic Auditing, Evaluation,
and Analysis
The Office of Forensic Auditing, Evaluation, and Analysis conducts evaluations of
potentially fraudulent, improper, wasteful and/or abusive activities related to GSA
programs and operations. Proactive efforts are conducted through the use of
innovative auditing and investigative techniques in order to enhance the early detection
and subsequent assessment of potentially fraudulent and criminal activities. The office
develops evidence that meets the admissibility standards for prosecution in federal
courts. In addition, the office plans, directs, and coordinates the quality assurance
function for the OIG.

It also carries out the OIG’s Federal Managers’ Financial Integrity Act (FMFIA) program,
to include both the Annual Assurance Statement and Internal Control Reviews. The
office completed the FMFIA Annual Assurance Statement and supported seven Office
of Investigations cases, one resulting in a $5.75 million settlement based on false claims
allegations of a GSA contractor.

The office continued prior period proactive work, supporting the Office of Investigations
on data analysis and analytical provision, and initiated four proactive evaluations
utilizing data-mining examinations focusing on data analysis of potentially fraudulent
activity. Finally, the office houses the OIG Records Officer, providing guidance and
assistance OIG-wide on records management issues.


Review of GSA Practices for Executive Performance Recognition and Awards

Report Number JEF12-017-000, dated May 16, 2013

We reviewed GSA’s practices for performance recognition and awards for members
of the Senior Executive Service (SES). The review covered the period FY2009 through
FY2011, representing three performance appraisal cycles. We identified deficiencies in
the GSA SES program that illustrate a willingness by GSA to violate legal requirements
that resulted in an opaque evaluation and award system, with a manufactured process
that failed to protect the rights of SES members, made review of the validity of
individual awards impossible, and impeded review of the overall program.

We identified the following significant findings:
      >> Executive performance evaluation practices, which have a direct effect on
         performance awards, violated legal requirements.
      >> SES award practices violated legal requirements.
      >> The SES award policy is inadequate.
      >> GSA violated record retention requirements.
      >> GSA did not make accurate disclosures to OPM.
      >> The SES award program was not accurately reported to Congress.

The Chief People Officer agreed with all but one finding, and accepted the
recommendations set forth in the report.




40                         OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Government-Wide
Policy Activities
GOVERNMENT-WIDE POLICY ACTIVITIES




Government-Wide Policy Activities
We regularly provide advice and assistance on government-wide policy matters to the
Agency, as well as to other federal agencies and committees of Congress. In addition,
as required by the IG Act of 1978, we review existing and proposed legislation and
regulations to determine their effect on the economy and efficiency of Agency’s programs
and operations and on the prevention and detection of fraud and mismanagement.
Because of the central management role of the Agency in shaping government-wide
policies and programs, most of the legislation and regulations reviewed invariably affect
government-wide issues such as procurement, property management, travel, and
government management and IT systems. To ensure the auditors’ independence when
performing subsequent audit work, we participate in Agency task forces, committees,
and working groups in an observer or advisor capacity.


Legislation, Regulations, and Subpoenas
During this reporting period, the OIG reviewed numerous legislative matters and
proposed regulations. We also responded to requests from Members of Congress on
behalf of their constituents as well as Congressional committees. The OIG also made
substantive comments on several proposed laws and regulations. Additionally, we issued
43 subpoenas in support of our audit, inspection, evaluative, and investigative work.


Interagency and Intra-agency Committees and Working Groups
We participated in a number of committees and working groups that address issues
that cut across agency lines:

   >> Council of the Inspectors General on Integrity and Efficiency (CIGIE). The IG is
      a member of the Investigations Committee and Homeland Security Roundtable.
      The IG is also the liaison between CIGIE and the federal Chief Acquisition
      Officers Council.

      –– CIGIE Disaster Assistance Working Group. On January 29, 2013 the
         President signed into law the Disaster Relief Appropriations Act of 2013
         (P.L. 113-2), which provides fiscal year 2013 supplemental appropriations
         to respond to and recover from the damage caused by Hurricane Sandy. It
         provides funds to eighteen federal agencies (GSA received $7M) and directs
         their OIGs to oversee the use of these funds. As a member, the GSA OIG
         will work with the Group to develop and use IT resources and oversight
         mechanisms to detect and remediate waste, fraud, and abuse as these
         appropriated funds are obligated and expended.

      –– Federal Audit Executive Council Information Technology Committee. The
         Finance and Information Technology Audit Office participates in the Federal Audit
         Executive Council Information Technology Committee. This Committee provides
         a forum to share information and coordinate audits of significant IT issues to the
         OIG community and the federal government. The committee also develops and
         recommends best practices to be used by OIGs in addressing IT issues.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                      43
                                                               GOVERNMENT-WIDE POLICY ACTIVITIES




      >> Public and Private Sector Outreach. During this reporting period, the IG
         continued to reach out to both the public and private sectors as part of an
         effort to prevent, detect, and deter procurement fraud. This outreach has
         promoted communication, coordination, and cooperation among accountability
         professionals to foster effectiveness and efficiency of government oversight.
         Organizations that the IG made presentations to or had discussions with include
         the Association of Government Accountants, CIGIE, the Department of Defense
         Office of Inspector General, and the American Institute of CPAs.

        During this reporting period, the IG also trained Canadian government auditors on
        fraud indicators in auditing at the Canadian Council of Legislative Auditors’ annual
        Performance Audit Symposium in Toronto, Canada. He also met with several
        Canadian auditors from Ottawa to discuss acquisition audits, real property audits, and
        fraud detection. Earlier this year, the Assistant Inspector General for Auditing, on behalf
        of CIGIE, met with and presented to Brazilian government officials about highlighting
        the significance of audit findings, particularly for performance audit findings.

      >> National Intergovernmental Audit Forum (NIAF) Strategic Planning Task Force.
         During this reporting period, the IG assisted with the development of NIAF’s
         upcoming 5-year strategic plan. The NIAF is an association of audit executives from
         federal, state, and local governments that discusses issues of common interest and
         shares best practices. It is managed by the U.S. Government Accountability Office.

      >> Recovery Accountability and Transparency Board Working Group (Recovery
         Working Group). Comprised of all OIGs, the Recovery Working Group is
         responsible for overseeing the use of Recovery Act funds, providing advice, and
         making recommendations to the Recovery Funds Working Group Committee on
         how best to coordinate oversight efforts of federal, state, and local governments.

      >> Regional Procurement Fraud Working Group. The goal of the Regional
         Procurement Fraud Working Group is to detect, prevent, and prosecute
         procurement fraud. In addition to increasing contact, and improving
         communication, between agencies and the U.S. Attorneys’ Offices, this group
         has developed innovative methods to identify and prosecute fraud and develop
         collaborative cases among different government agencies. The Special Agent in
         Charge and the Regional Inspector General for Audits in our Heartland Region
         Office participate in bi-annual group meetings held in Kansas City, Missouri. The
         meetings are chaired by the Chief of the Fraud and Corruption Unit of the U.S.
         Attorney’s Office for the Western District of Missouri. Members of the group include
         representatives from the Department of Justice, the Regional Field Office of the
         Federal Bureau of Investigations, and the region’s OIGs. Meetings are attended by
         attorneys, agents, and auditors from various federal government agencies.

      >> Federal Audit Executive Council Information Technology Committee. The
         Finance and Information Technology Audit Office participates in the Federal Audit
         Executive Council Information Technology Committee. This committee provides
         a forum to share information and coordinate audits of significant IT issues to the
         OIG community and the federal government. The committee also develops and
         recommends best practices to be used by OIGs in addressing IT issues.




44                          OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
GOVERNMENT-WIDE POLICY ACTIVITIES




   >> TeamMate Technical Support Group. As part of our mission to address some
      of the complex integration and security issues surrounding E-Gov and the use
      of information technology, the TeamMate Technical Support Group participates
      in the TeamMate Federal Users Group and the Commerce Clearing House
      TeamMate Users Group to discuss concerns and challenges facing TeamMate
      users. TeamMate is an automated audit workpaper management system that
      strengthens the audit process, increases the efficiency and effectiveness of our
      auditors and audits, and ultimately leads to more robust, quality audit products.

   >> The Multiple Award Schedule Working Group. The MAS Working Group
      discusses consistency in the application of FAS policy with contracting officers
      and acquisition staff. It serves as an effective communication channel for both
      broad policy and discrete issues related to specific contracts or audits. The group
      was established as a result of an August 2001 OIG report on MAS contract
      pricing practices. It is primarily comprised of representatives from FAS and the
      OIG, along with ad hoc members from other branches of the Agency.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                       45
                                                   SECTION TITLE HERE




46   OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Appendices
                                                   SECTION TITLE HERE




48   OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




Appendix I –
Significant Audits from Prior Reports
Under the Agency audit management decision process, the GSA Offices of
Administrative Services and the Chief Financial Officer are responsible for tracking the
implementation of audit recommendations after a management decision has been
reached. These offices furnished the following status information.

Nine audits identified in prior reports to the Congress include recommendations that
have not yet been fully implemented. These recommendations are being implemented
in accordance with currently established milestones.


Follow-up Audit of GSA’s Acquisition of Services for the International Trade
Center at the Ronald Reagan Building: PBS’s Oversight of Contract Requirements

Period First Reported: October 1, 2012, to March 31, 2013

The objective was to determine if the PBS performed effective oversight of the
requirements related to minimum revenue guarantees and deliverables in the contract
for management and operation of the International Trade Center at the Ronald Reagan
Building. The report contained four recommendations; three have not been implemented.

The remaining recommendations involve improving the processes for reviewing
deliverables; developing revenue verification processes to ensure that revenue amounts
remitted by TCMA are complete, accurate, and attributed to the correct minimum
revenue guarantee category; and acting in accordance with PBS’s plan to address
preaward competition concerns. The recommendations are scheduled for completion
between December 15, 2013, and August 15, 2014.


Audit of the Prepayment Audit Process, Transportation Audits Division,
Federal Acquisition Service

Period First Reported: October 1, 2012, to March 31, 2013

The objective of this audit was to determine whether the Audit Policy and Review
Branch of the Federal Acquisition Service’s Transportation Audits Division ensures
federal agencies audit all transportation bills prior to payment, as required by Public
Law 105-264. If not, determine the reasons for, and the impact of, the Audit Policy and
Review Branch’s lack of oversight. The report contained five recommendations; four
have not been implemented.

The remaining recommendations involve improving compliance measurement by
ensuring that complete and comparable data are used to assess agency compliance
with Public Law 105-264; contacting agencies with low compliance rates to identify and
address the reasons for lack of compliance; improving monitoring of agency compliance
with Public Law 105-264 by using and analyzing transportation data more thoroughly;
and obtaining, reviewing, and approving all prepayment audit programs, as required.
The recommendations are scheduled for completion between November 15, 2013, and
March 15, 2014.



APRIL 1, 2013 – SEPTEMBER 30, 2013                                                        49
                                          APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




Audit of the General Services Administration’s FY 2012 Financial Statements

Period First Reported: October 1, 2012, to March 31, 2013

The objective was to conduct an audit of GSA’s consolidated balance sheet, the
individual balance sheet of the Federal Buildings Fund and the Acquisition Services
Fund, the related consolidated and individual statement of net cost, the changes in net
position, and the combined and individual statements of budgetary resources for fiscal
year 2012. The report contained 98 recommendations; 16 have not been implemented.

The 16 remaining recommendations involve implementing a review process to ensure
that the system Funding and Spending controls are turned off for a valid reason and
turned back on after processing; continuing to monitor newly implemented and existing
controls over contracting and procurement actions; continuing the assessment of the
agency’s financial information technology infrastructure with the objective of improving
the effectiveness of information technology controls, both general and application and
of timely and accurate financial reporting; instituting policies and procedures to ensure
that the delivery date or period of performance is stated on all obligation documents;
training the contracting officers to understand the need and the requirement to obtain
the proper certifications of funds availability from the certifying official before signing
any obligation; implementing the Accounting for Environmental Guidelines in fiscal
year 2013; developing and delivering training to all applicable regional personnel on
accounting and reporting procedures for environmental liabilities; developing effective
information and communication processes to ensure that technical accounting issues
related to environmental liabilities are identified in a timely manner; providing additional
training to reinforce existing policies and procedures, which require proper authorization
and approval of contracts prior to recording the obligations in the financial management
system; performing regular verification of the assets listing in the Fixed Asset subsidiary
ledger; developing effective information and communication processes to ensure that
policies and procedures over environmental liabilities are consistently communicated
and applied throughout the agency; developing and delivering training to regional
personnel on accounting and reporting procedures for environmental liabilities;
developing and delivering training on an ongoing basis to ensure appropriate asset
classification codes are used for each building entered into REXUS; performing regular
verifications of the assets listed in the Fixed Assets subsidiary ledger; enforcing policies
with the regions to ensure that all RWAs are recorded in RETA timely and accurately;
and recommending OCFO GSS System Owner develop and document procedures to
require that operating system logs are periodically reviewed for inappropriate activity.
The recommendations are scheduled for completion between November 30, 2013, and
September 30, 2014.




50                       OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




Audit of GSA’s Improper Payments Performance

Period First Reported: October 1, 2012, to March 31, 2013

The objective was to determine if GSA is in compliance with the Improper Payments
Information Act of 2002 and the Improper Payments Elimination and Recovery Act of
2010 (IPERA) for FY 2012. The report contained three recommendations; two have not
been implemented.

The remaining recommendations involve strengthening internal controls surrounding
the preparation and review of the Other Accompanying Information section of the
Agency Financial Report to ensure accurate report; and modifying the contract
language to satisfy OMB requirements for using an external contractor for payment
recapture audit services. The recommendations are scheduled for completion between
October 15, 2013, and November 15, 2013.


Audit of PBS’s Major Construction and Modernization Projects,
Modifications at 50 UN Plaza Renovation Project

Period First Reported: October 1, 2012, to March 31, 2013

The objective of the Office of Inspector General’s Recovery Act oversight is to
determine if PBS is planning, awarding, and administering contracts for major
construction and modernization projects in accordance with prescribed criteria and
Recovery Act mandates. The report contained four recommendations; three have not
been implemented.

The remaining recommendations involve notifying Congress and OMB of inaccurate
Recovery Act financial reporting on the 50 UN Plaza project caused by invalid
obligation; notifying Congress and OMB of the use of Minor R&A funds to supplement
the 50 UN Plaza Recovery Act project; and obtaining funding from other GSA
components for the cost of tenant-requested improvements. The recommendations are
scheduled for completion on December 15, 2013.


Limited Scope Audit of Invalid Obligations and
Contingency Funding for Recovery Act Projects

Period First Reported: October 1, 2012, to March 31, 2013

The objective of this audit was to alert GSA management that Recovery Act funds were
being invalidly obligated on multiple projects through contract modifications being used
for contingency and, as a result, Recovery Act reporting has been inaccurate and the
invalidly obligated funds have expired and will be rescinded. The report contained three
recommendations; two have not been implemented.

The remaining recommendations involve notifying the OMB that Recovery Act
funds have been invalidly obligated and that past reporting of obligations has been
inaccurate; and notifying Congressional Committees with jurisdiction as appropriate.
The recommendations are scheduled for completion on December 15, 2013.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                    51
                                          APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




Audit of PBS Compliance with Fee Limitations for Architect/Engineering Contracts

Period First Reported: October 1, 2012, to March 31, 2013

The objective was to determine if PBS has adequate controls in place to ensure
Architect/Engineering contracts comply with the 6 percent fee limitation imposed by
FAR Part 15.404-4(c)(4)(i)(B). The report contained three recommendations; one has not
been implemented.

The remaining recommendation involves revising Forms 2630 and 2631 to require
the Architect/Engineering’s estimator and the independent government estimator to
identify and separate services included in and excluded from the fee limitation. The
recommendation is scheduled for completion on March 15, 2014.


Audit of Personal Property Donation Program: New Jersey State Agency
for Surplus Property

Period First Reported: October 1, 2011, to March 31, 2012

The objectives of the audit were to determine if donated properties only go to eligible
recipients, and if these properties are accounted for and used by the New Jersey State
Agency for Surplus Property (NJ SASP). The report contained three recommendations;
two have not been implemented.

The remaining two recommendations involve enforcing proper recordkeeping
standards on the NJ SASP; and reviewing the NJ SASP in a more timely fashion,
carefully documenting these reviews, disseminating the results to the SASP, and
following up on outstanding issues. The recommendations are scheduled for
completion between November 15, 2013, and April 15, 2014.


Audit of the General Services Administration’s FY 2011 Financial Statements

Period First Reported: October 1, 2011, to March 31, 2012

The objective was to conduct an audit of GSA’s consolidated balance sheet, the
individual balance sheet of the Federal Buildings Fund and the Acquisition Services Fund,
the related consolidated and individual statement of net cost, the changes in net position,
and the combined and individual statements of budgetary resources for fiscal year 2011.
The report contained 146 recommendations; two have not been implemented.

The two remaining recommendations involve reviewing the existing database and
operating system vulnerabilities; and reviewing management’s acceptance of risk for
database vulnerabilities to assess the risks posed to the organization on an individual
and cumulative basis. The recommendations are scheduled for completion by
December 31, 2013.




52                       OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
    APPENDIX II – AUDIT REPORT REGISTER




    Appendix II –
    Audit Report Register
                                                                                                                      FINANCIAL RECOMMENDATIONS
DATE OF         REPORT                                                                                            FUNDS BE PUT          QUESTIONED
REPORT          NUMBER           TITLE                                                                            TO BETTER USE     (UNSUPPORTED) COSTS

(Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial recommendations related to these reports
are not listed in this Appendix.)
PBS INTERNAL AUDITS

04/04/13        A120140          Audit of the Heartland Region Public Buildings Service's Award and
                                 Administration of Blanket Purchase Agreements GS-06P-07-GX-A-0009 and
                                 GS-06P-08-GX-A-0076

04/15/13        A090184          Recovery Act Report - Termination of Original Group 7 Award Review
                                 of PBS's Limited Scope and Small Construction Projects Funded by the
                                 American Recovery and Reinvestment Act of 2009

07/31/13        A130102          Implementation Review of Corrective Action Plan, Robert A. Young Federal
                                 Building Recovery Act Construction Project, Report Number A090172/P/R/
                                 R12003 Dated March 8, 2012

09/11/13        A120001          Audit of GSA's Controls over the National Capital Region's Reimbursable
                                 Work Authorizations
PBS CONTRACT AUDITS

04/24/13        A120179          Examination of a Claim: Braithwaite Construction Company, LLC, Contract
                                 Number GS-07P-99-HHD-0100

05/13/13        A130047          Examination of a Request for Equitable Adjustment: Skanska USA Building,
                                 Inc., Contract Number GS-04P-09-EX-C-0076

05/29/13        A130064          Audit of Proposed Rental Rate Increase for the Internal Revenue Service                                      $305,638
                                 Center in Kansas City, Missouri, Lease Number GS-06P-40004

08/22/13        A130109          Examination of a Change Order Proposal: Patton Contractors Inc., Contract
                                 Number GS-07P-99-HHD-0079, Task Order Number GS-P-07-12-UR-5028
FAS INTERNAL AUDITS

04/26/13        A130068          Applicability of Price Reductions Over the Maximum Order Threshold

06/04/13        A120161          Improper Management Intervention in Multiple Award Schedule Contracts,
                                 Federal Supply Schedule 70 - Information Technology Contracts, Federal
                                 Acquisition Service

07/02/13        A130078          Implementation Review of Corrective Action Plan, Opportunities to Improve
                                 the Federal Acquisition Service's City Pair Program through Data Analysis,
                                 Report Number A110065/Q/9/P12002 Dated January 20, 2012

07/16/13        A120106          Audit of GSA's Award and Administration of Center of Excellence Task Orders                                  $109,000
                                 Pacific Rim Region Federal Acquisition Service

08/20/13        A130063          Implementation Review of Corrective Action Plan, Review of Multiple Award
                                 Schedule Vendors’ Invoicing Practices Relative to Prompt Payment Discounts,
                                 Report Number A090026/Q/7/P10001 Dated March 15, 2010




    APRIL 1, 2013 – SEPTEMBER 30, 2013                                                                              53
                                                                                                  APPENDIX II – AUDIT REPORT REGISTER




                                                                                                             FINANCIAL RECOMMENDATIONS
DATE OF        REPORT                                                                                    FUNDS BE PUT         QUESTIONED
REPORT         NUMBER    TITLE                                                                           TO BETTER USE    (UNSUPPORTED) COSTS
FAS CONTRACT AUDITS

04/05/13       A120123   Preaward Examination of Multiple Award Schedule Contract Extension:
                         QinetiQ North America, Inc., Contract Number GS-35F-4674H

04/10/13       A130035   Preaward Examination of Multiple Award Schedule Contract Extension:
                         Robbins-Gioia, LLC, Contract Number GS-35F-5070H

04/17/13       A120162   Preaward Examination of Multiple Award Schedule Contract Extension: Kforce                                $147,666
                         Government Solutions, Inc. Contract Number GS-23F-9837H

04/19/13       A130051   Preaward Examination of Multiple Award Schedule Contract Extension:
                         ANSYS, Inc., Contract Number GS-35F-0639N

04/23/13       A130050   Preaward Examination of Multiple Award Schedule Contract Extension: Toffler
                         Associates, Inc., Contract Number GS-10F-0414N

05/08/13       A120170   Preaward Examination of Multiple Award Schedule Contract Extension: Ernst
                         & Young, LLP, Contract Number GS-23F-8152H

05/22/13       A120175   Preaward Examination of Multiple Award Schedule Contract Extension: STG,
                         Inc., Contract Number GS-35F-4951H

05/28/13       A100160   Limited Scope Postaward Examination of Multiple Award Schedule Contract:                                $2,064,798
                         i2, Incorporated, Contract Number GS-35F-0241J for the Period July 1,
                         2004 through December 31, 2009

05/29/13       A130044   Preaward Audit of Multiple Award Schedule Contract: Tektronix, Inc.,
                         Contract Number GS-24F-0819A

05/31/13       A130057   Preaward Examination of Multiple Award Schedule Contract Extension: Danya
                         International, Incorporated, Contract Number GS-10F-0484N

06/03/13       A120113   Preaward Examination of Multiple Award Schedule Contract Extension: MSC                                     $2,278
                         Industrial Direct Co., Inc., Contract Number GS-06F-0010N

06/06/13       A130052   Preaward Examination of Multiple Award ScheduleContract Extension:                                         $10,701
                         Defense Group Inc., Contract Number GS-00F-0013R

06/12/13       A130056   Preaward Examination of Multiple Award ScheduleContract Extension: DHA                                    $237,045
                         Group, Inc., Contract Number GS-00F-0003W

06/19/13       A130055   Limited Scope Postaward Examination of MultipleAward Schedule Contract:                                   $387,870
                         Raytheon Company, Contract Number GS-35F-4097G for the Period January
                         1, 2007 through September 30, 2012

06/28/13       A130069   Preaward Examination of Multiple Award ScheduleContract Extension: L-3                                    $248,423
                         Communications Vertex Aerospace, LLC., Contract Number GS-10F-0328N

07/10/13       A130037   Preaward Audit of Multiple Award Schedule Contract Extension: Safe Boats
                         International, LLC, Contract Number GS-07F-0038H

07/11/13       A120152   Preaward Audit of Multiple Award Schedule ContractExtension: Herman                                       $175,056
                         Miller, Inc., Contract Number GS-28F-8049H

07/11/13       A130042   Preaward Examination of Multiple Award Schedule Contract Extension:
                         Navarro Research and Engineering, Inc., Contract Number: GS-00F-0092N

07/16/13       A120166   Preaward Audit of Multiple Award Schedule ContractExtension: Technical                                     $13,876
                         Communities, Inc. dba Testmart, Contract Number GS-24F-0066M

07/18/13       A100054   Limited Scope Review of Contractor-DisclosedOverbillings: Northrop                                     $53,271,251
                         Grumman Information Technology, Inc., Contract Number GS-35F-4506G




                         54                             OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
    APPENDIX II – AUDIT REPORT REGISTER




                                                                                                               FINANCIAL RECOMMENDATIONS
DATE OF         REPORT                                                                                     FUNDS BE PUT         QUESTIONED
REPORT          NUMBER       TITLE                                                                         TO BETTER USE    (UNSUPPORTED) COSTS

07/22/13        A120104      Preaward Examination of Multiple Award ScheduleContract Extension:                                       $52,616
                             International Paper Company dba Xpedx, Contract Number GS-15F-0042M

07/31/13        A120134      Preaward Audit of Multiple Award Schedule Contract Extension: International
                             Business Machines Corporation, Contract Number GS-35F-4984H

07/31/13        A130053      Preaward Examination of Multiple Award ScheduleContract: Agilent                                         $40,621
                             Technologies, Inc., Solicitation Number 7FCB-C4-070066-B

08/12/13        A130045      Preaward Examination of Multiple Award Schedule Contract Extension: IIF
                             Data Solutions, Inc. Contract Number GS-10F-0171N

08/29/13        A120149      Preaward Examination of Multiple Award ScheduleContract Extension:                                      $569,409
                             Lockheed Martin Integrated Systems, Inc., Contract Number GS-10F-0150N

09/04/13        A100210      Preaward Examination of Multiple Award ScheduleContract Extension: Labat-                               $517,335
                             Anderson, Inc., Contract Number GS-25F-0028L

09/06/13        A130085      Preaward Examination of Multiple Award ScheduleContract Extension: Bart &                               $130,030
                             Associates, Inc., Contract Number GS-35F-5924H

09/09/13        A120156      Preaward Examination of Multiple Award ScheduleContract Extension:                                       $60,328
                             General Dynamics Information Technology, Inc., Contract Number GS-35F-
                             4357D

09/11/13        A130082      Preaward Examination of Multiple Award Schedule Contract Extension:
                             AECOM Government Services, Inc., Contract Number GS-10F-0497N

09/30/13        A120087      Preaward Examination of Multiple Award Schedule Contract Extension: Eaton
                             Corporation, Contract Number GS-07F-9460G
OTHER INTERNAL AUDITS

09/10/13        A130016      Audit of GSA's Mobile Computing Initiatives

09/30/13        A130117      Implementation Review of Corrective Action Plan, Audit of GSA's Hiring
                             Practices, Report Number A110082/O/F/F11009, September 30, 2011

09/30/13        A130118      Implementation Review of Corrective Action Plan, Audit of GSA's Transition
                             from FTS2001 to Networx, Report Number A110086/O/F/F11007,
                             September 22, 2011
NON-GSA CONTRACT AUDITS

06/27/13        A130070      Examination of a Termination Settlement Proposal: H.J. Lyness Construction,
                             Inc., Contract Number GS-05P-06-SL-C-3014




    APRIL 1, 2013 – SEPTEMBER 30, 2013                                                                       55
                      APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




Appendix III –
OIG Reports over 12 Months Old,
Final Agency Action Pending
Public Law 104-106 requires the head of a Federal agency to complete final action on
each management decision required with regard to a recommendation in an Inspector
General’s report within 12 months after the date of the report. If the head of the Agency
fails to complete final action within the 12-month period, the Inspector General shall
identify the matter in the semiannual report until final action is complete.

The Offices of Administrative Services and the Chief Financial Officer provided the
following list of reports with action items open beyond 12 months:

ISSUE DATE    AUDIT REPORT
OF REPORT     NUMBER         TITLE
ATTESTATION ENGAGEMENTS

12/12/2008 A080177           Preaward Review of Multiple Award Schedule Contract Extension:
                             Tecolote Research, Incorporated, Contract Number GS‑35F‑5115H

12/29/2008 A090042           Postaward Audit Report on Direct Costs Incurred on Trilogy Project:
                             Computer Sciences Corporation, Contract Number GS00‑T99‑ALD204

01/20/2009 A080136           Preaward Review of Multiple Award Schedule Contract Extension:
                             Dynamic Decisions, Inc., Contract Number GS‑35F‑5879H

04/27/2009 A080210           Preaward Review of Multiple Award Schedule Contract Extension:
                             ImmixTechnology, Inc., Contract Number GS‑35F‑0330J

08/06/2009 A090145           Preaward Review of Multiple Award Schedule Contract Extension:
                             BTAS, Inc., Contract Number GS‑35F‑0546J

08/19/2009 A090106           Preaward Review of Multiple Award Schedule Contract Extension:
                             Perot Systems Government Services, Inc., Contract Number GS‑00F‑0049M

08/21/2009 A080030           Preaward Review of Multiple Award Schedule: Hewlett‑Packard Company,
                             Solicitation Number FCIS‑JB‑980001‑B

08/21/2009 A090090           Preaward Review of Multiple Award Schedule Contract Extension:
                             Ezenia, Inc., Contract Number GS‑35F‑0475P

09/04/2009 A090074           Preaward Review of Multiple Award Schedule Contract Extension:
                             Tech Flow, Inc., Contract Number GS‑35F‑0210J

09/04/2009 A090254           Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                             Engineering Services on the New St. Elizabeth's West Campus of the U.S. Department
                             of Homeland Security Headquarters and Consolidated National Operations Center
                             (NOC) Greenhorne & O'Mara, Inc., Solicitation Number GS11‑P08‑MKC0080

09/09/2009 A090232           Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                             Engineering Services on the new St. Elizabeth's West Campus of the United
                             States Department of Homeland Security Headquarters and Consolidated National
                             Operations Center in Washington, DC, Haley & Aldrich, Inc. Solicitation Number
                             GS11‑P08‑MKC0079




56                             OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




ISSUE DATE    AUDIT REPORT
OF REPORT     NUMBER         TITLE
CONTRACT AUDITS

09/10/2009 A090234           Report on Audit of Direct Labor Rates, Indirect Rates, and Other Direct Costs
                             Portion of HDR Architecture, Inc's Subcontract Proposal under Solicitation Number
                             GS11‑P08‑MKC0079

11/09/2009 A090202           Preaward Review of Multiple Award Schedule Contract Extension:
                             Computech, Inc., Contract Number GS‑35F‑0108K

11/17/2009 A080144           Preaward Review of Multiple Award Schedule Contract Proposal:
                             BMC Software, Inc., Solicitation Number FCIS‑JB‑980001‑B

12/10/2009 A090159           Preaward Review of Multiple Award Schedule Contract Extension:
                             RCF Information Systems, Inc., Contract Number GS‑35F‑0613J

06/23/2010 A090222           Preaward Review of Multiple Award Schedule Contract Extension:
                             Force 3, Inc., Contract Number GS‑35F‑0785J

06/24/2010 A090108           Preaward Review of Multiple Award Schedule Contract Extension:
                             Integrated Data Services Inc., Contract Number GS‑35F‑0372J

07/06/2010 A080070           Preaward Review of Multiple Award Schedule Contract Extension:
                             Accenture, LLP, Contract Number GS‑35F‑4692G

08/16/2010 A090130           Limited Review of Multiple Award Schedule, Contract Number GS‑28F‑7018G for the
                             Period January 8, 2002, to November 7, 2005, Cort Business Furniture

08/24/2010 A090140           Postaward Review of Multiple Award Schedule Contract: Systems Research and
                             Applications Corporation, Contract Number GS‑35F‑0735J

09/15/2010 A080124           Limited Scope Postaward Review of Contract Number GS‑35F‑4027D for the
                             Period July 1, 2003 To December 29, 2008: ASAP Software Express, Inc.

09/16/2010 A100148           Examination of a Change Order Proposal, Alutiiq International Solutions, LLC,
                             Contract Number GS‑08P‑08‑JF‑C‑0005

10/07/2010 A100117           Preaward Examination of Multiple Award Contract Extension:
                             Dun & Bradstreet, Inc. Contract Number GS‑22F‑9614D

10/12/2010 A100156           Examination of a Claim: Acousti Engineering Company of Florida Subcontractor to
                             Dick Corporation, Contract Number GS‑04P‑01‑EXC‑0044

10/27/2010 A090133           Limited Scope Postaward Review of Multiple Award Schedule Contract Number
                             GS‑07F‑0012J for the Period July 29, 2002, to September 9, 2008,
                             SeaArk Marine, Inc.

11/24/2010 A090192           Preaward Review of Multiple Award Schedule Contract Extension:
                             SHI International Corporation Contract Number GS‑35F‑0111K

11/22/2010 A100195           Preaward Examination of Multiple Award Schedule Contract Extension:
                             Knight Protective Service, Inc. Contract Number GS‑07F‑0266K

11/24/2010 A100193           Postaward Audit of Multiple Award Schedule Contract Extension:
                             The Stratix Corporation, Contract Number GS‑35F‑0805R

12/14/2010 A100201           Preaward Examination of Multiple Award Schedule Contract Extension:
                             Government‑Buys, Incorporated, Contract Number GS‑35F‑0122S

12/27/2010 A100172           Preaward Examination of Multiple Award Schedule Contract Extension:
                             New England Woodcraft, Inc., Contract Number: GS‑27F‑0005L

01/27/2011 A100075           Preaward Review of Multiple Award Schedule Contract Extension:
                             Cort Business Services Corporation, Contract Number GS‑28F‑7018G




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                                              57
                     APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




ISSUE DATE   AUDIT REPORT
OF REPORT    NUMBER         TITLE

01/27/2011 A100213          Examination of a Claim: Cobb Mechanical Contractors, Subcontractor to Caddell
                            Construction Company Incorporated; Contract Number GS‑07P‑05‑UEC‑3003

02/02/2011 A100171          Examination of a Claim: Layton Construction Company, Inc., Contract Number:
                            GS‑08P‑07‑JFC‑0016

03/10/2011 A100062          Preaward Review of Multiple Award Schedule Contract Extension:
                            Carahsoft Technology Corporation, Contract Number GS‑35F‑0131R

03/16/2011 A100168          Preaward Review of Multiple Award Schedule Contract Extension:
                            Johnson Controls, Inc. Contract Number GS‑07F‑7823C

03/29/2011 A100114          Preaward Review of Multiple Award Schedule Contract Extension:
                            Ahura Scientific, Inc. Contract Number GS‑07F‑6099R

05/10/2011 A110073          Preaward Examination of Multiple Award Schedule Contract Extension:
                            PPS Infotech, LLC, Contract Number GS‑35F‑0372L

05/12/2011 A100221          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Mainline Information Systems, Inc., Contract Number GS‑35F‑0216L

05/12/2011 A110044          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Vaisala, Inc. Contract Number GS‑25F‑6029D

05/16/2011 A110063          Postaward Examination of Multiple Award Schedule Contract Number
                            GS‑35F‑0554K, For the period January 1, 2008, to December 31, 2010,
                            IntelliDyne, LLC

05/17/2011 A100183          Examination of a Claim: Moshe Safdie and Associates, Inc., Contract Number
                            GS‑01P‑99‑BWC‑0016

06/01/2011 A110070          Examination of a Claim: Bergelectric Corporation Subcontractor to Caddell
                            Construction Co., Inc., Contract Number GS‑07P‑05‑UEC‑3003

06/01/2011 A110087          Preaward Examination of Multiple Award Schedule Contract Extension:
                            National Interest Security Company, LLC, Contract Number GS‑25F‑0032L

06/07/2011 A090112          Postaward Review of Multiple Award Schedule Contract: ITS Services, Inc., Contract
                            Number GS‑35F‑5518H, For the Period March 20, 1998, Through April 30, 2008

06/10/2011 A110115          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Pacific Star Communications, Inc., Contract Number GS‑35F‑0031L

06/13/2011 A110108          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Protective Products Enterprises, Contract Number GS‑07F‑9029D

06/30/2011 A090045          Limited Scope Postaward Review of Multiple Award Schedule Contract Number
                            GS‑07F‑0496T for the Period January 1, 2005, to July 31, 2007, C‑Tech
                            Industries, Inc.

07/06/2011 A110098          Examination of a Claim: KenMor Electric Company, LP, Subcontractor to
                            W.G. Yates & Sons Construction Company, Contract Number GS‑07P‑05‑URC‑5007

07/07/2011 A100140          Preaward Review of Multiple Award Schedule Contract Extension:
                            Veterans Imaging Products, Inc., Contract Number GS‑14F‑0005L

07/08/2011 A110132          Preaward Examination of Architect‑Engineer Proposal R.A. Heintges & Associates
                            Subcontractor to Smith‑Miller & Hawkinson Architects, LLP, Solicitation Number
                            GS11‑P10‑MKC0050

07/08/2011 A110132          Preaward Examination of Architect‑Engineer Proposal
                            Smith‑Miller & Hawkinson Architects, LLP Solicitation Number GS11P10MKC0050




58                            OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




ISSUE DATE   AUDIT REPORT
OF REPORT    NUMBER         TITLE

07/14/2011 A110140          Preaward Examination of Architect/Engineering Proposal Lehman Smith McLeish,
                            PLLC, Subcontractor to Smith‑Miller & Hawkinson Architects LLP, Solicitation Number
                            GS11‑P10‑MKC0050

07/22/2011 A080188          Review of a Claim: Dynalectric Company, Subcontractor to Dick Corporation,
                            Contract Number GS‑04P‑01‑EXC‑0044

07/25/2011 A100174          Examination of a Claim Leon D. Dematteis Construction Corporation;
                            Contract Number GS‑02P‑04‑DTC‑0032(N)

07/27/2011 A100170          Examination of a Claim: Caddell Construction Company, Incorporated
                            Contract Number GS‑07P‑05‑UEC‑3003

07/27/2011 A110109          Preaward Examination of Multiple Award Contract Extension:
                            Security Consultants Group Incorporated, Contract Number GS‑07F‑0267L

07/28/2011 A110088          Postaward Examination of Multiple Award Schedule Contract Number GS‑07F‑6028P
                            for the Period January 1, 2009, to December 31, 2010, Global Protection USA, Inc.

08/03/2011 A100119          Preaward Review of Multiple Award Schedule Contract Extension:
                            Noble Sales Co., Inc., Contract Number GS‑06F‑0032K

08/03/2011 A100182          Preaward Examination of O&M Services Contract: Security Construction Services,
                            Inc.; Solicitation Number GS‑01P‑10‑BW‑C‑0026 (NEG)

08/04/2011 A110133          Preaward Examination of Architect Engineer Proposal Arup USA, Inc.,
                            Subcontractor to Smith‑Miller & Hawkinson Architects LLP,
                            Solicitation Number GS11‑P10‑MKC0050

08/10/2011 A110102          Examination of a Claim W.G. Yates & Sons Construction Company
                            Contract Number GS‑07P‑05‑URC‑5007

08/15/2011 A110180          Examination of Architect and Engineering Services Contract:
                            RTKL Associates, Inc. Contract Number GS‑11P‑11‑MK‑C‑0045

08/19/2011 A110111          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Thermo Electron North America , LLC, Contract Number GS‑24F‑0026L

08/22/2011 A090196          Review of Construction Management Services Contract Bovis Lend Lease LMB, Inc.
                            Contract Number GS‑02P‑04‑DTC‑0028(N) Options Number 3, 5, and 6

08/25/2011 A110136          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Konica Minolta Business Solutions U.S.A., Inc. Contract Number GS‑25F‑0030M

09/01/2011 A110182          Examination of a Termination Settlement Proposal:
                            Hensel Phelps Construction Company, Contract Number GS‑04P‑10‑BV‑C‑0065

09/08/2011 A110021          Examination of a Claim: Myrex Industries, Subcontractor to Caddell Construction
                            Company, Incorporated, Contract Number GS‑07P‑05‑UEC‑3003

09/09/2011 A110067          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Clifton Gunderson, LLP Contract Number GS‑23F‑0135L

09/12/2011 A110146          Examination of Conversion Proposal: White Construction Company Contract Number
                            GS‑07P‑06‑UEC‑0059

09/14/2011 A110122          Preaward Examination of Multiple Award Schedule Contract:
                            Agilent Technologies, Incorporated ‑ Contract Number GS‑26F‑5944A

09/15/2011 A110174          Postaward Examination of Multiple Award Schedule Contract Number
                            GS‑07F‑9029D, For the Period March 5, 2010, to July 31, 2011,
                            Protective Products Enterprises

10/13/2011 A100210          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Labat‑Anderson, Inc, Contract Number GS‑25F‑0028L




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                                           59
                     APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




ISSUE DATE   AUDIT REPORT
OF REPORT    NUMBER         TITLE

11/15/2011 A110197          Preaward Examination of Multiple Award Schedule Contract Extension:
                            KDH Defense Systems, Inc. Contract Number GS‑07F‑0249T

12/07/2011 A110176          Preaward Examination of Multiple Award ScheduIe Contract Extension:
                            Fontaine Trailer Company, Incorporated Contract Number GS‑30F‑0018T

12/19/2011 A110153          Examination of a Claim Letsos Company, Subcontractor to W.G. Yates & Sons
                            Construction Company Contract Number GS‑07P‑05‑URC‑5007

12/22/2011 A110178          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Sharp Electronics Corporation Contract Number GS‑25F‑0037M

12/27/2011 A110191          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Paradigm Technologies, Inc. Contract Number GS‑23F‑0023T

12/27/2011 A110198          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Scott Technologies Incorporated Contract Number GS‑07F‑9563G

01/19/2012 A110152          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Technology Associates International Corporation, Contract Number GS‑35F‑0474L

01/23/2012 A110186          Preaward Examination of Multiple Award Schedule Contract Extension:
                            BRSI, L.P. Contract Number GS‑23F‑0186L

01/31/2012 A110177          Examination of a Claim: Way Engineering Ltd. Subcontractor to W.G. Yates & Sons
                            Construction Company Contract Number GS‑07P‑05‑URC‑5007

02/03/2012 A120065          Examination of a Claim: Bergelectric Corporation, Subcontractor to Caddell
                            Construction Company, Inc., Contract Number GS‑07P‑05‑UEC‑3003

02/08/2012 A120075          Examination of a Claim: Enola Contracting Services, Inc., Contract Number
                            GS‑04P‑07‑EXC‑0167

02/22/2012 A110089          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Quality Software Services, Inc Contract Number GS‑35F‑0308L

03/01/2012 A110097          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Dell Marketing, L.P. Contract Number GS‑35F‑4076D

03/02/2012 A120021          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Presidio Networked Solutions, Inc.; Contract Number GS‑35F‑4554G

03/07/2012 A110200          Preaward Examination of MAS Contract Extension: Deco, Inc.,
                            Contract Number GS‑07F‑0103M

03/16/2012 A100191          Postaward Examination of Multiple Award Schedule, Contract Number
                            GS‑29F‑0119C, For the Period January 1, 2004, to June 30, 2010 ErgoGenesis, LLC

03/27/2012 A120074          Preaward Examination of Multiple Award Schedule Contract:
                            Kimball International, Inc. Contract Number GS‑29F‑0177G

03/28/2012 A120070          Examination of a Claim Cobb Mechanical Contractors Subcontractor to Caddell
                            Construction Co., Inc. Contract Number GS‑07P‑05‑UEC‑3003

04/10/2012 A120090          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Mine Safety Appliances Company Contract Number GS‑07F‑9628G

04/12/2012 A110143          Preaward Examination of Multiple Award Schedule Contract Extension:
                            The J. Diamond Group, Inc., Contract Number GS‑07F‑0305L

04/23/2012 A120086          Preaward Examination of Multiple Award Schedule Contract Extension:
                            The Analysis Corporation Contract Number GS‑35F‑0344L

05/01/2012 A110213          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Miami Air International, Incorporated Contract Number GS‑33F‑0016T




60                            OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




ISSUE DATE   AUDIT REPORT
OF REPORT    NUMBER         TITLE

05/02/2012 A110216          Preaward Audit of Multiple Award Schedule Contract Extension:
                            Learning Tree International USA, Inc.; Contract Number GS‑35F‑4414G

05/09/2012 A120069          Examination of a Claim: Cleveland Construction, Inc., Subcontractor to
                            Caddell Construction Co., Inc. Contract Number GS‑07P‑05‑UEC‑3003

05/17/2012 A110207          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Analytical Graphics, Inc. Contract Number GS‑35F‑4022D

05/18/2012 A120056          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Systems Research and Applications Corporation Contract Number GS‑35F‑4594G

05/30/2012 A120112          Limited Scope Attestation Engagement ‑ Examination of Labor Rates at the JFK
                            Federal Building, Contract Number GS‑01P‑09‑BW‑D‑0009

05/31/2012 A120059          Preaward Examination of Multiple Award Schedule Contract Extension:
                            The MIL Corporation Contract Number GS‑35F‑4670G

06/29/2012 A110169          Postaward Examination of Multiple Award Schedule Contract:
                            Oce North America, Inc. Contract Number GS‑25F‑0060M
                            For the Period October 1, 2006, through March 31, 2011

07/05/2012 A110166          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Pitney Bowes, Inc. Contract Number GS‑25F‑0010M

07/06/2012 A120126          Preaward Examination of Multiple Award Schedule Contract:
                            Hamilton Products Group, Inc. Solicitation Number 3QSA‑JB‑100001‑B

07/17/2012 A120136          Examination of a Claim Lenex Steel Company Contract Number
                            GS‑05P‑02‑GB‑C‑0089

08/09/2012 A120063          Examination of a Claim Caddell Construction Co., Inc. Contract Number
                            GS‑07P‑05‑UEC‑3003

08/09/2012 A120084          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Raytheon Company, Contract Number GS‑35F‑4097G

08/15/2012 A110209          Preaward Audit of Multiple Award Schedule Contract Extension:
                            Propper International Sales, Inc. Contract Number GS‑07F‑0228M

08/17/2012 A120119          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Spectrum Systems, Inc., Contract Number GS‑35F‑5192G

08/21/2012 A120083          Examination of a Change Order Proposal, M.A. Mortenson Company, Contract
                            Number GS‑08P‑09‑JFC‑0010

08/23/2012 A120061          Preaward Examination of Multiple Award Schedule Contract Extension:
                            Schneider Electric USA, Inc. Contract Number GS‑07F‑9462G

09/12/2012 A120103          Preaward Examination of Multiple Award Schedule Contract Extension:
                            ManTech Advanced Systems International, Inc.; Contract Number GS‑35F‑4660G

09/18/2012 A120121          Examination of a Termination Settlement Proposal:
                            Alutiiq International Solutions, LLC, Contract Number GS‑08P‑08‑JF‑C‑0005

09/20/2012 A120141          Examination of a Claim: Turner Construction Company Contract Number
                            GS‑07P‑11‑HH‑C‑0003 Construction Company




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                                        61
                      APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




ISSUE DATE    AUDIT REPORT                                                                         PROJECTED FINAL
OF REPORT     NUMBER         TITLE                                                                     ACTION DATE
INTERNAL AUDITS

03/31/11      A110072        Review of the Federal Acquisition Service's National Customer              01/15/14
                             Service Center

08/19/11      A090172        Recovery Act Report - GT "Mickey" Leland Federal Building                  01/15/14
                             Renovation Project: Construction Contract Audit of PBS's Major
                             Construction and Modernization Projects Funded by The American
                             Recovery and Reinvestment Act of 2009

09/30/11      A110096        FY 2011 Office of Inspector General Information Technology Security        07/15/14
                             Audit of the AT&T Operational Support System

09/30/11      A110095        FY 2011 Office of Inspector General Information Technology Security        02/15/14
                             Audit of the SmartPay – Citibank System

11/10/11      A110103        Audit of the General Services Administration’s Fiscal Year 2011            10/31/13
                             Financial Statements

03/30/12      A110117        Audit of Personal Property Donation Program: New Jersey State              04/15/14
                             Agency for Surplus Property, Federal Acquisition Service, Northeast
                             and Caribbean Region

03/29/12      A120054        FY 2012 Office of Inspector General Information Technology Security        11/15/13
                             Audit of the Data.gov Terremark System

05/30/12      A110100        Audit of Management Controls Within the Network Services Division          02/15/14
                             Pacific Rim Region, Federal Acquisition Service




62                             OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX IV – OIG REPORTS WITHOUT MANAGEMENT DECISION




Appendix IV –
OIG Reports Without
Management Decision
Section 5(a)(10) of the IG Act, as amended, requires a summary of each report issued
before the commencement of the reporting period for which no management decision
has been made by the end of the reporting period. GSA has a system in place to track
reports and management decisions. Its purpose is to ensure that recommendations and
corrective actions indicated by the OIG and agreed to by management are addressed as
efficiently and expeditiously as possible. This period there are four OIG reports that meet
this requirement.


Preaward Examination of MAS Contract Extension: Spectrum Systems, Inc.,
Contract Number GS-35F-5192G, dated August 17, 2012

This audit was performed to determine whether Spectrum Systems submitted current,
accurate, and complete CSP information; maintained sales monitoring and billing systems
that ensure proper administration of the price reduction provisions and billing terms of
the contract; and adequately accumulated and reported schedule sales for IFF payment
purposes. The report concluded that Spectrum Systems’ CSP is current, but not accurate
and complete; current and proposed Price Reductions clauses do not provide adequate
protection for the Government; GSA Schedule customers were improperly billed, resulting
in overcharges; and Spectrum does not have an adequate system for classifying sales for
IFF purposes.

After multiple meetings to resolve the contracting officer’s disagreement with our report
findings, FAS has agreed to address the issues.


Preaward Review of MAS Contract Extension: BlueScope Construction, Inc.,
Contract Number GS-07F-9665G, dated November 14, 2012

This audit was performed to determine whether BlueScope Construction, Inc. submitted
current, accurate, and complete CSP information; maintained sales monitoring and billing
systems that ensure proper administration of the price reduction provisions and billing
terms of the contract; and adequately accumulated and reported schedule sales for IFF
payment purposes. The report concluded that BlueScope’s GSA and non-GSA pricing
methodologies differ, and each BlueScope sale is so unique that they cannot be priced
using MAS processes. Ordering procedures under the contract are inconsistent with the
Federal Acquisition Regulation, and GSA sales are inconsistent with the General Services
Administration Acquisition Manual’s direction for procuring construction as a commercial
item. The contract does not afford effective price reduction protection due to inadequate
Maximum Order Threshold levels, insufficient BlueScope monitoring, and an invalid price/
discount relationship with the basis of award customer.

After multiple meetings to resolve the contracting officer’s disagreement with our report
findings, we are going to escalate the issues to GSA management.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                           63
                                     APPENDIX IV – OIG REPORTS WITHOUT MANAGEMENT DECISION




Preaward Examination of MAS Contract Extension: Grant Thornton, LLP,
Contract Number GS-23F-8196H, dated January 24, 2013

This audit was performed to determine whether Grant Thornton, LLP submitted current,
accurate, and complete CSP information; maintained sales monitoring and billing systems
that ensure proper administration of the price reduction provisions and billing terms of
the contract; adequately accumulated and reported schedule sales for IFF payment
purposes; assigned employees to work on GSA task orders who are qualified for the
billable positions; and maintained an accounting system that adequately segregates
and accumulates labor hours, material costs, and other direct costs (ODCs) on time and
material (T&M) task orders. The report concluded that Grant Thornton’s (GT) proposed
cost build-up rates are overstated and require adjustment. The direct labor cost
component of GT’s cost build-up rate is unacceptable for certain labor categories and GT
has no employees available for its proposed “Administrator” labor category. GT improperly
administers the Price Reductions clause by failing to report price reductions as they occur
and failing to notify the contracting officer of inactive basis of award customers. However,
GT adequately accumulates and reports schedule sales for IFF payment purposes and
assigns employees to work on GSA task orders who are qualified for the billable positions.
The company also maintains an accounting system that adequately segregates and
accumulates labor hours, material costs, and ODCs for T&M task orders.

After multiple meetings to resolve the contracting officer’s disagreement with our report
findings, we are going to escalate the issues to GSA management.


Preaward Examination of MAS Contract Extension: The Centech Group, Contract
Number GS-35F-5440H, dated March 14, 2013

This audit was performed to determine whether The Centech Group (Centech) submitted
current, accurate, and complete CSP information; maintained sales monitoring and
billing systems that ensure proper administration of the price reduction provisions and
billing terms of the contract; adequately accumulated and reported schedule sales
for IFF payment purposes; assigned employees to work on GSA task orders who are
qualified for the billable positions; and maintained an accounting system that adequately
segregates and accumulates labor hours, material costs, and ODCs on T&M task
orders. The report concluded that Centech’s CSP is current, accurate and complete.
However, the company’s proposed labor rates are overstated and require adjustment;
the Price Reductions clause is ineffective; the billing terms of the contract are improperly
administered, resulting in overcharges; controls for accumulating and reporting schedule
sales for IFF purposes need to be strengthened; and GSA sales for the 1-year period
ending September 30, 2012, are under-reported. However, Centech does maintain an
accounting system that adequately segregates and accumulates labor hours and ODCs
on T&M task orders.

After multiple meetings to resolve the contracting officer’s disagreement with our report
findings, we are going to escalate the issues to GSA management.




64                        OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX V – PEER REVIEW RESULTS




Appendix V –
Peer Review Results
The Dodd-Frank Wall Street Reform Act requires each Inspector General to submit an
appendix containing the results of any peer review conducted by another OIG during
the reporting period or, if no peer review was conducted, a statement identifying the
date of the last peer review conducted; a list of any outstanding recommendations
from any peer review conducted by another OIG that have not been fully implemented;
the status of the recommendation, and an explanation why the recommendation is
not complete; and a list of any peer reviews conducted by the OIG of another Office
of Inspector General during the reporting period, including a list of any outstanding
recommendations made from any previous peer review that have not been
fully implemented.

In FY 2012, the Office of Audits underwent a peer review by the Department of Justice.
On December 20, 2012, the GSA OIG received a peer review rating of “pass.” The peer
review team found that the GSA OIG’s system of quality control is suitably designed
and complied with to provide reasonable assurance of performing and reporting
in conformity with applicable standards in all material respects. No outstanding
recommendations exist from any previous peer review conducted by another OIG.

The Office of Audits did not conduct any peer reviews of another OIG during this
reporting period. As such, no outstanding recommendations exist from previous peer
reviews that have not been fully implemented.

On July 26, 2013, the Small Business Administration OIG stated that the system
of internal safeguards and management procedures for the GSA OIG Office of
Investigations was in full compliance with the standards promulgated for investigations
by the Attorney General Guidelines and the CIGIE.




APRIL 1, 2013 – SEPTEMBER 30, 2013                                                   65
                                                                     APPENDIX VI – REPORTING REQUIREMENTS




Appendix VI –
Reporting Requirements
The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages where they are addressed. The
information requested by the Congress in Senate Report No. 96-829 relative to the 1980
Supplemental Appropriations and Rescission Bill, the National Defense Authorization Act,
and the Dodd-Frank Wall Street Reform Act are also cross-referenced to the appropriate
page of the report.

REQUIREMENT                                                                                           PAGE

INSPECTOR GENERAL ACT

Section 4(a)(2) –	 Review of Legislation and Regulations                                               43
Section 5(a)(1) –	 Significant Problems, Abuses, and Deficiencies                                    16–28
Section 5(a)(2) –	 Recommendations with Respect to Significant Problems, Abuses, and Deficiencies    16–28
Section 5(a)(3) –	 Prior Recommendations Not Yet Implemented                                            49
Section 5(a)(4) –	 Matters Referred to Prosecutive Authorities                                          12
Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where Information Was Refused                     none
Section 5(a)(6) –	 List of OIG Reports                                                                  51
Section 5(a)(7) –	 Summary of Each Particularly Significant Report                                   16–28
Section 5(a)(8) –	 Statistical Tables on Management Decisions on Questioned Costs                       11
Section 5(a)(9) –	Statistical Tables on Management Decisions on Recommendations That Funds Be Put
                                                                                                        11
                    to Better Use
Section 5(a)(10) –	Summary of OIG Reports Issued Before the Commencement of the                       55
                    Reporting Period for Which No Management Decision Has Been Made
Section 5(a)(11) –	Description and Explanation for Any Significant Revised Management Decision        none
Section 5(a)(12) –	Information on Any Significant Management Decisions                               none
                    with Which the Inspector General Disagrees
SENATE REPORT NO. 96-829

Resolution of Audits                                                                                    10
NATIONAL DEFENSE AUTHORIZATION ACTS

Public Law 104-106, 5 U.S.C. app. 3, § 5 note                                                          54
Public Law 110-181                                                                                      28
DODD-FRANK WALL STREET REFORM AND CONSUMER PROTECTION ACT

Peer Review Results                                                                                     57




66                              OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Make
like
it’s your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your

Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write:	 GSA, IG, Hotline Officer
	          Washington, DC 20405

or access the Web:
http://www.gsaig.gov/index.cfm/hotline/

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsaig.gov
